<html>
<title> - NANOTECHNOLOGY RESEARCH AND DEVELOPMENT: THE BIGGEST LITTLE THING IN TEXAS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      NANOTECHNOLOGY RESEARCH AND
                        DEVELOPMENT: THE BIGGEST
                         LITTLE THING IN TEXAS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2003

                               __________

                           Serial No. 108-37

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                                 ______

90-675              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                            December 5, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Michael C. Burgess, Member, Committee 
  on Science, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    12
    Written Statement............................................    14

                               Witnesses:

Dr. Richard F. Reidy, Professor, Department of Materials Science, 
  University of North Texas
    Oral Statement...............................................    14
    Written Statement............................................    17
    Biography....................................................    22
    Financial Disclosure.........................................    23

Dr. Da Hsuan Feng, Vice President for Research and Graduate 
  Education, University of Texas, Dallas
    Oral Statement...............................................    24
    Written Statement............................................    27
    Biography....................................................    30
    Financial Disclosure.........................................    32

Dr. Ronald L. Elsenbaumer, Vice President for Research, 
  University of Texas, Arlington
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    36
    Financial Disclosure.........................................    38

Mr. Christopher J. Gintz, CEO, NanoHoldings, LLC
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    42
    Financial Disclosure.........................................    45

Dr. John Randall, Chief Technology Officer, Vice President of 
  Research, Zyvex Corporation
    Oral Statement...............................................    46
    Written Statement of Mr. James R. Von Ehr II, Chairman and 
      CEO, Zyvex Corporation.....................................    49
    Biography....................................................    51
    Financial Disclosure.........................................    52

Discussion.......................................................    53

 
 NANOTECHNOLOGY RESEARCH AND DEVELOPMENT: THE BIGGEST LITTLE THING IN 
                                 TEXAS

                              ----------                              


                        FRIDAY, DECEMBER 5, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9 a.m., in the 
reception area of Research Park, University of North Texas 
Research Park, 3940 Elm Street North, Denton, Texas, Hon. 
Michael C. Burgess [acting Chairman of the Committee] 
presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Nanotechnology Research and

                        Development: The Biggest

                         Little Thing in Texas

                        friday, december 5, 2003
                          9:00 a.m.-11:00 p.m.
                university of north texas research park
                3940 elm street n., denton, texas 76203

1. Purpose

    On Friday, December 5, 2003, at 9:00 a.m., the House Science 
Committee will hold a hearing to examine the emerging nanotechnology 
industry and the value of research and development programs to job 
creation and economic development within the U.S. nanotechnology 
sector.

2. Witnesses

Dr. Rick Reidy, Professor of Materials Science and Engineering, 
University of North Texas. Dr. Reidy has a Ph.D. in Metals Science and 
Engineering from Penn State University and B.A. in Chemistry/
Biochemistry from Rice University. Before joining the University of 
North Texas, he worked on nanoporous films for chemical weapons 
detection at the U.S. Army Chemical and Biological Defense Command, 
Aberdeen, MD. He is currently developing nanostructured materials and 
processing methods for semiconductor applications supported by the 
National Science Foundation, Texas Instruments, and International 
Sematech.

Dr. Da Hsuan Feng, Vice President for Research and Graduate Education, 
University of Texas, Dallas. Dr. Feng has a doctorate degree in 
Theoretical Physics from the University of Minnesota. Since coming to 
UTD, he has worked to rapidly build the research breadth and depth of 
the University to make it a major international research university. 
Dr. Feng is responsible for recruiting much of UTD's nanoscience 
researchers.

Dr. Ron Elsenbaumer, Vice President for Research, University of Texas, 
Arlington. Dr. Elsenbaumer has a Ph.D. from Stanford University and a 
B.S. from Purdue University. His primary research interests include 
developing new conductive polymer compositions and developing 
quantitative group additivity principles for constructing conjugating 
conductive polymers with predictable optical, electrical, and 
electrochemical properties.

Mr. Chris Gintz, CEO, NanoHoldings, LLC. Mr. Gintz is a well-known 
designer, marketer and executive in the computer industry, whose 
experience spans the semiconductor, software and hardware businesses. 
He is the inventor of the Compaq LTE notebook computer concept and, 
since 1995, he has been a force behind the incorporation of software 
technology into school curriculums across the United States.

Dr. John Randall, Chief Technology Officer, Vice President of Research, 
Zyvex Corporation. Dr. Randall has a Ph.D. in Electrical Engineering 
from the University of Houston. He has over twenty years of experience 
in micro- and nanofabrication. He joined Zyvex in March of 2001 after 
fifteen years at Texas Instruments where he worked in high resolution 
processing for integrated circuits, MEMS, and quantum effect devices. 
Prior to working at TI, Dr. Randall worked at MIT's Lincoln Laboratory 
on ion beam and x-ray lithography.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1. LWhat is the state of nanotechnology science and 
        engineering? What is the potential for nanotechnology 
        advancements to contribute to future economic growth across 
        various industries, and what challenges exist that may slow or 
        limit this growth?

        2. LWhat is the status of private sector investment in 
        nanotechnology research and development? How can the National 
        Nanotechnology Initiative (NNI) and university-industry 
        research partnerships best accelerate commercial applications 
        of nanotechnology by industry?

        3. LIs the U.S. education system currently producing an 
        adequate number of people with the skills needed to conduct 
        research in nanotechnology and to work in industry on the 
        commercialization of nanotechnology applications? What is the 
        long-term outlook for the nanotechnology workforce, and what 
        types of policies will help the U.S. education system to 
        produce a workforce that meets these demands?

4. Brief Overview

        <bullet> Nanotechnology is the science of manipulating and 
        characterizing matter at the atomic and molecular level. It is 
        one of the most promising and exciting fields of science today, 
        involving a multitude of science and engineering disciplines, 
        with widespread applications in electronics, advanced 
        materials, medicine, and information technology. For example, 
        nanotechnology likely represents the future of information 
        processing and storage, as computer chips and magnetic disk 
        drive components will increasingly depend on nanotechnology 
        innovations.

        <bullet> The impact that nanotechnology is currently having on 
        new and existing industries is significant, but the potential 
        for the future is enormous. The National Science Foundation 
        estimates that nanotechnology will have a one trillion dollar 
        impact on the global economy in the next decade. Existing 
        industries, including those not typically characterized as 
        ``high tech'', are likely to see their product lines and the 
        way they manufacture them influenced by our growing knowledge 
        in nanotechnology.

        <bullet> At a hearing before the House Science Committee in 
        March 2003, witnesses testified that just five years ago, there 
        was very little private interest in the nanotechnology research 
        and development (R&D). Today, private investment is in the 
        billions of dollars, with most Fortune 500 companies now 
        funding at least some nanotechnology R&D, and venture 
        capitalists providing almost $500 million to nanotechnology 
        start-up companies in 2002 alone.

        <bullet> The National Nanotechnology Initiative (NNI) is an 
        $849 million research initiative (fiscal year 2004 request) 
        involving 10 federal agencies--and one of the President's most 
        significant new commitments to continued U.S. leadership in 
        science and technology. The Science Committee has made 
        nanotechnology R&D among its top priorities for 2003, working 
        to strengthen the focus and funding of the NNI.

        <bullet> On February 13, 2003, Chairman Sherwood Boehlert (R-
        NY) and Representative Mike Honda (D-CA) introduced H.R. 766, 
        the Nanotechnology Research and Development Act of 2003, which 
        authorizes a federal nanotechnology R&D program, thus assuring 
        stable, long-term support. The bill also authorizes 
        appropriations for nanotechnology R&D in those agencies within 
        the Science Committee's jurisdiction that currently participate 
        in the NNI. A companion bill, S. 189, was introduced in the 
        Senate by Senator George Allen (R-VA) and Senator Ron Wyden (D-
        OR). A final compromise of the two versions, the 21st Century 
        Nanotechnology Research and Development Act, passed both 
        chambers of Congress and is expected to be signed by the 
        President very soon.

        <bullet> The legislation supports the President's initiative 
        and adds review and oversight mechanisms to assure that new 
        funds are used in the most effective manner possible. It also 
        addresses a number of the recommendations that were raised in a 
        comprehensive report by the National Academy of Sciences and 
        other outside experts.

7. Background

    A recent National Academy of Sciences report describes 
nanotechnology as the ``. . .relatively new ability to manipulate and 
characterize matter at the level of single atoms and small groups of 
atoms.. . .This capability has led to the astonishing discovery that 
clusters of small numbers of atoms or molecules often have properties--
such as strength, electrical resistivity, electrical conductivity, and 
optical absorption--that are significantly different from the 
properties of the same matter at either the single-molecule scale or 
the bulk scale.'' Scientists and engineers anticipate that 
nanotechnology will lead to ``materials and systems with dramatic new 
properties relevant to virtually every sector of the economy, such as 
medicine, telecommunications, and computers, and to areas of national 
interest such as homeland security.''
    A variety of nanotechnology products are already in development or 
on the market, including stain-resistant, wrinkle-free pants and 
ultraviolet-light blocking sunscreens. Other applications involve 
Kodak's use of scratch-free, transparent coatings and Samsung's new 
high-brightness displays. Experts agree that more revolutionary 
products will emerge from nanotechnology research currently underway. 
Many small start-up companies have been founded to develop new 
technologies and new products based on breakthroughs in our 
understanding of materials at the atomic and molecular level.
The National Nanotechnology Initiative
    The National Nanotechnology Initiative (NNI), formally established 
in 2001, is the President's most ambitious interagency 
interdisciplinary science and technology program. Ten federal agencies 
actively participate in research and development efforts that involve 
physicists, chemists, biologists, engineers, and researchers from many 
other disciplines. The initiative has grown rapidly from an initial 
budget request of $464 million in fiscal year 2001 to the $849 million 
requested for fiscal year 2004 (although these numbers are not strictly 
comparable as some ongoing research programs have, over time, evolved 
into nanotechnology research).
    While each agency involved in the NNI focuses its research on that 
agency's unique mission, the overall effort is organized at the White 
House level through the articulation of Grand Challenges--or broad, 
mission-related, technical goals. These include nanotechnology-based 
innovations in manufacturing, energy production and storage, 
information technology, medicine, robotics, aeronautics, and defense 
and homeland security applications.
    Recognizing the inherently interdisciplinary nature of 
nanotechnology science and engineering, the NNI supports research 
through nanotechnology centers and user facilities, designed to bring 
researchers from multiple disciplines together, as well as through 
grants to individual researchers and groups of researchers. The 
National Science Foundation (NSF), the Department of Energy, and the 
National Aeronautics and Space Administration (NASA) currently sponsor, 
or are in the process of establishing, a number of nanotechnology 
research centers and user facilities around the country. Among the NSF-
supported centers, some are focused on specific industries, such as the 
Center for Nanoscale Systems in Information Technologies at Cornell 
University. Others are national user facilities, such as the 
nanofabrication facilities at Stanford University and Pennsylvania 
State University, and one, the Center on Biological and Environmental 
Nanotechnology at Rice University, conducts research on the societal 
implications of nanotechnology development.
    The overall federal effort is coordinated by the National Science 
and Technology Council's (White House coordinating council composed of 
the heads of the major research agencies) Subcommittee on Nanoscale 
Science, Engineering and Technology (NSET), which has responsibility 
for interagency planning and review. While each agency consults with 
the NSET Subcommittee, the agency retains control over how resources 
are allocated against its proposed NNI plan. Each agency then uses its 
own methods for inviting and evaluating research proposals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The 21st Century Nanotechnology Research and Development Act
    This legislation, a House-Senate compromise of H.R. 766 and S. 189, 
would cement U.S. economic and technical leadership in nanotechnology 
by assuring stable, long-term support for nanotechnology research and 
facilitating the commercialization of nanotechnology applications. The 
bill establishes an interagency research and development (R&D) program 
to promote and coordinate federal support of nanotechnology R&D, 
including grants to researchers and the establishment of 
interdisciplinary research centers and advanced technology user 
facilities. The bill also emphasizes the need to perform research into 
the ethical, legal, environmental, and other appropriate societal 
concerns related to nanotechnology, to educate the public about 
nanotechnology, and to involve the public in the debate. The bill aims 
to protect taxpayers by adding oversight mechanisms--an interagency 
committee to coordinate the program across multiple agencies, an annual 
report to Congress, a strategic plan for the program, an advisory 
panel, and external reviews--to assure funds are spent wisely. The bill 
authorizes approximately $3.7 billion of funding at five agencies over 
four years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


8. Witness Questions

Questions for university witnesses:

        <bullet> How significant of an impact will nanotechnology have 
        on U.S. economic growth and job creation in the coming decades? 
        In what industry areas will the impact be most dramatic? What 
        challenges exist that may slow or limit the growth and 
        influence of nanotechnology?

        <bullet> What in your experience are the best practices to 
        help facilitate the transfer of basic research results to 
        industry? To what extent has your university partnered with 
        industry on nanotechnology research and development challenges, 
        and how can such collaborations be made more effective?

        <bullet> Has federal support for your research been effective 
        at helping your university achieve its goals? How might 
        Congress strengthen the structure, funding levels, and focus of 
        the National Nanotechnology Initiative?

        <bullet> Is the U.S. education system currently producing an 
        adequate number of people with the skills needed to conduct 
        research in nanotechnology and to work in industry on the 
        commercialization of nanotechnology applications? What is the 
        longer-term outlook for the nanotechnology workforce, and what 
        changes, if any, should be made to the current education system 
        to ensure these workforce needs are met?
Questions for industry witnesses:

        <bullet> How significant of an impact will nanotechnology have 
        on U.S. economic growth and job creation in the coming decades? 
        How will nanotechnology influence the industry areas in which 
        your company is most active? What challenges exist that may 
        slow or limit the growth and influence of nanotechnology?

        <bullet> What is the appropriate federal role in fostering and 
        accelerating the deployment and application of basic 
        nanotechnology research and development by the private sector? 
        How might Congress strengthen the structure, funding levels, 
        and focus of the National Nanotechnology Initiative?

        <bullet> To what extent is your company involved in research 
        collaborations with universities, and how can such 
        collaborations be made more effective?

        <bullet> Is the U.S. education system currently producing an 
        adequate number of people with the skills needed to conduct 
        research in nanotechnology and to work in industry on the 
        commercialization of nanotechnology applications? What is the 
        longer-term outlook for the nanotechnology workforce, and what 
        changes, if any, should be made to the current education system 
        to ensure these workforce needs are met?
    Chairman Burgess [presiding]. All right. We do want to be 
respectful of everyone's time, so we'll try to start on time. 
Mr. Hall, we'll have you out of here by 11 a.m. Probably during 
the course of this meeting we will not take--since we are so 
brief, we probably won't take recesses. So anyone who needs to 
excuse themselves for a moment or two, that's certainly 
understandable.
    This is the House Science Field Hearing on Nanotechnology. 
I want to first start off today's hearing by thanking all of 
those in attendance on our panel's witness list and taking time 
out of their busy schedules to be here today. I'd also like to 
thank in absentia Representative Sherwood Boehlert, the 
Chairman of the House Science Committee, and Representative 
Nick Smith, who's the Chairman of the House Committee on 
Science--Nick Smith, who is the Chairman of the Research 
Subcommittee on Science, for helping making this hearing 
happen.
    Our title for today's hearing is ``Nanotechnology R&D: The 
Biggest Little Thing in Texas,'' and it's especially 
appropriate as we sit here in this wonderful facility devoted 
to research of applied technology based on nanotechnology. The 
President signed the 21st Century Nanotechnology Research and 
Development Act into law just two days ago, so our field 
hearing today is perfectly timed to show how North Texas is and 
will continue to be the leader in this field.
    Here at the Center for Advanced Research and Technology, 
the University of North Texas, along with federal agencies and 
private businesses, is working to establish a world class 
research park that satisfies the growing technological and 
engineering needs of the North Texas region. This center may 
well serve as a national nanotechnology shrine acting as an 
epicenter for the ground breaking developments in materials, 
computer and the engineering science fields.
    One of the most exciting developments here at the Center 
for Advanced Research and Technology has been the work of 
several different partners in establishing nanometrology. The 
University of North Texas continues to invest millions of 
dollars into this facility. The University funds are on top of 
future Department of Defense appropriations recently awarded at 
over $3 million. The funding will provide facility upgrades and 
equipment purchases. Corporate partnerships, such as the one 
with Texas Instruments, have also been critical to the Center's 
success. The University of North Texas is not the only 
institution of higher education working to develop similar 
scientific capabilities here in North Texas. The University of 
Texas at Arlington and the University of Texas at Dallas have 
helped to firmly establish the North Texas area as the leading 
area in nanotechnology research and development.
    More and more professionals in this field, and indeed those 
like myself that hold elected office, are coming to understand 
the vital need to fully integrate government, business and 
academic nanotechnology R&D activities. Just recently the 
United States Congress approved legislation that will chart a 
path for future developments in this field.
    This bill, the 21st Century Nanotechnology Research and 
Development Act, will give policy makers, scientists and the 
business community a framework to identify the grand challenges 
of nanoscience. The bill will provide a scientific and ethical 
compass for those in the field. The new National Nanotechnology 
Research Program authorized by this bill will help foster 
interdisciplinary research in this exciting new science.
    The overarching questions that the hearing wants to address 
today: What is the state of nanotechnology science and 
engineering? What is the potential for nanotechnology 
advancements to contribute to the future economic growth across 
various industries? And what challenges exist that may slow or 
limit this growth?
    Secondly, what is the status of the private sector 
investment in nanotechnology research and development? How can 
the National Nanotechnology Initiative and the university/
industry research partnerships best accelerate commercial 
applications of nanotechnology by industry? And, thirdly, is 
the United States educational system currently producing an 
adequate number of people with the skills needed to conduct 
research in nanotechnology and to work in the industry of 
commercialization of those applications? What is the long-term 
outlook for the nanotechnology work force and what types of 
policies will help the United States education system to 
produce a work force that must meet these demands?
    Being here this morning we are reminded of how critical 
interdisciplinary research can be, especially in the small 
science. Just recently we can point to an example where the 
intersection of mechanical engineering, bioengineering, 
pharmacology, medicine and surgery quietly and completely 
joined together to give two young children a chance at a much 
brighter future. Ahmed and Mohamed Ibrahim are two formerly 
conjoined twins that underwent a remarkable separation 
procedure at Children's Medical Center of Dallas not too far 
from here. Everyone at Children's was involved in the effort, 
from the doctors, the nurses, the technicians, to theoretical 
and practical professionals who developed the specialized 
operating room table, their monitors and the medicines. Perhaps 
most importantly were individuals from both private and public 
sector entities who pushed the research and development of 
these incredible new devices, devices that are smaller and much 
more precise. Without them the miracle at Dallas Children's 
Hospital may not have been possible.
    Examples such as these are reminders of how important it is 
to continue pushing the envelope when it comes to nanoscience. 
This is a field that will impact all of our lives in profound 
yet unknown ways. Today I'm proud to introduce a very 
distinguished panel of nanotechnology experts from right here 
at home.
    Dr. Rick Reidy, Professor of Materials Science and 
Engineering here at the University of North Texas. Dr. Reidy 
has a Ph.D. in Metals Science and Engineering from Penn State 
University and a Bachelor's Degree in Chemistry and 
Biochemistry from Rice University. Before joining the 
University of North Texas, he worked on nanoporous films for 
chemical weapons detection at the U.S. Army Chemical and 
Biological Defense Command in Aberdeen, Maryland. He is 
currently developing nanostructured materials and processing 
methods for semiconductor applications supported by the 
National Science Foundation, Texas Instruments and 
International Sematech.
    Dr. Feng, Vice President for Research and Graduate 
Education at the University of Texas at Dallas. Dr. Feng has a 
doctorate degree in Theoretical Physics from the University of 
Minnesota and I understand an honorary degree from the 
University of Peking in China. Since coming to the University 
of Texas at Dallas, he has worked rapidly to build the research 
breadth and depth of the University to make an international 
research facility. Dr. Feng is responsible for recruiting much 
of UTD's nanoscience researchers.
    Dr. Ron Elsenbaumer, Vice President for Research at the 
University of Texas at Arlington. Dr. Elsenbaumer has a Ph.D. 
from Stanford University and a B.S. from Purdue. His primary 
research interests include developing new conductive polymer 
compositions and developing quantitative group additivity 
principles for constructing conjugating conductive polymers 
with predictable optical, electrical and electrochemical 
properties.
    Mr. Chris Gintz, Chief Executive Officer of NanoHoldings, 
LLC. Mr. Gintz is a well-known designer, marketer and executive 
in the computer industry whose experience spans the 
semiconductor, software and hardware businesses. He is the 
inventor of the Compaq LTE notebook computer concept, and since 
1995 he's been a force behind the incorporation of software 
technology into school curricula across the United States.
    Dr. John Randall, Chief Technology Officer and Vice 
President of Research, Zyvex Corporation. Dr. Randall has a 
Ph.D. in Electrical Engineering from the University of Houston. 
He has over 20 years of experience in micro- and 
nanofabrication. He joined Zyvex in March of 2001 after 15 
years at Texas Instruments where he worked in high resolution 
processing for integrated circuits and quantum effect devices. 
Prior to working at Texas Instruments, Dr. Randall worked at 
the Massachusetts Institute of Technology's Lincoln Laboratory 
on ion beam and x-ray lithography.
    And then of course the red light's on. I need to turn the 
microphone over to my distinguished colleague, the Ranking 
Member on the Science Committee, Mr. Ralph Hall, for his 
opening remarks.
    [The prepared statement of Mr. Burgess follows:]

        Prepared Statement of Representative Michael C. Burgess

    I want to first start off by thanking all those in attendance and 
our panel of witnesses for being here today. I'd also like to thank 
Sherwood Boehlert, Chairman for the Full Science Committee, and Nick 
Smith, Chairman of the Research Subcommittee for helping make this 
hearing happen. Our title for today's hearing, ``Nanotechnology R&D: 
The Biggest Little Thing in Texas'' is especially appropriate as we sit 
here in this premier facility devoted to the research of applied 
technology based on nanotechnology.
    Here at the Center for Advanced Research and Technology, the 
University of North Texas, along with federal agencies and private 
businesses, are working to establish a world-premier research park that 
will satisfy the growing technological and engineering needs of the 
North Texas region. This center will serve a national goal as well, 
acting as an epicenter for ground-breaking developments in materials, 
computer, and engineering scientific fields. One of the most exciting 
developments here at CART has been the work by several different 
partners to establish a Nanometrology Laboratory. The University of 
North Texas has already and will continue to invest millions of dollars 
into this facility, along with a future Department of Defense grant of 
over $3 million to continue facility upgrades and equipment purchases. 
Corporate partnerships, such as the one with Texas Instruments, Inc. 
have also been critical to the Center's success.
    UNT is not the only institution of higher education working to 
develop similar scientific capabilities here in North Texas. The 
University of Texas at Arlington and the University of Texas at Dallas 
have helped firmly establish North Texas as a leading area for 
nanotechnology research and development.
    More and more professionals in this field, and indeed those like 
myself that hold elected office, are coming to understand the vital 
need to fully integrate government, business, and academic 
nanotechnology R&D activities. Just recently, the U.S. Congress 
approved legislation that will chart a path for future developments in 
this field. This bill, the 21st Century Nanotechnology Research and 
Development Act, will give policy-makers, scientists, and the business 
community a framework to identify the grand challenges of nanoscience, 
and provide a scientific and ethical compass for those in the field. 
The new National Nanotechnology Research Program authorized by this 
bill will help foster interdisciplinary research in this exciting new 
science.
    Being here today, we are reminded how critical interdisciplinary 
research can be, especially in the ``small science.'' Just recently, we 
can point to an example where the intersection of mechanical 
engineering, bioengineering, pharmacology, medicine and surgery quietly 
and completely joined together to give two young children a chance at a 
much brighter future. Ahmed and Mohamed Ibrahim are two formerly 
conjoined twins that underwent a remarkable separation procedure at 
Children's Medical Center of Dallas, not too far from here. Everyone at 
Children's Medical Center was involved in the effort--from doctors, 
nurses and technicians, to the theoretical and practical professionals 
who developed the specialized O.R. table, monitors and medicines. 
Perhaps most importantly were the individuals from both the private and 
public sector entities who pushed the research and development of the 
incredible new devices--devices that are smaller and much more precise. 
Without them, the miracle at Dallas' Children's Hospital may not have 
been possible.
    Examples such as these are reminders of how important it to 
continue pushing the envelope when it comes to nanoscience. This is a 
field that will impact all of our lives in profound and yet unknown 
ways. Today I'm proud to introduce a very distinguished panel of 
nanotechnology experts from right here in Texas. . .

    Dr. Rick Reidy, Professor of Materials Science and Engineering, 
University of North Texas. Dr. Reidy has a Ph.D. in Metals Science and 
Engineering from Penn State University and B.A. in Chemistry/
Biochemistry from Rice University. Before joining the University of 
North Texas, he worked on nanoporous films for chemical weapons 
detection at the U.S. Army Chemical and Biological Defense Command, 
Aberdeen, MD. He is currently developing nanostructured materials and 
processing methods for semiconductor applications supported by the 
National Science Foundation, Texas Instruments, and International 
Sematech.

    Also joining us is Dr. Da Hsuan Feng, Vice President for Research 
and Graduate Education, University of Texas, Dallas. Dr. Feng has a 
doctorate degree in Theoretical Physics from the University of 
Minnesota. Since coming to UTD, he has worked to rapidly build the 
research breath and depth of the University to make it a major 
international research university. Dr. Feng is responsible for 
recruiting much of UTD's nanoscience researchers.

    Dr. Ron Elsenbaumer is the Vice President for Research at the 
University of Texas, Arlington. Dr. Elsenbaumer has a Ph.D. from 
Stanford University and a B.S. from Purdue University. His primary 
research interests include developing new conductive polymer 
compositions and developing quantitative group additivity principles 
for constructing conjugating conductive polymers with predictable 
optical, electrical, and electrochemical properties.

    We also have Mr. Chris Gintz, CEO of NanoHoldings, LLC. Mr. Gintz 
is a well-known designer, marketer and executive in the computer 
industry, whose experience spans the semiconductor, software and 
hardware businesses. He is the inventor of the Compaq LTE notebook 
computer concept and, and since 1995, he has been a force behind the 
incorporation of software technology into school curriculums across the 
United States.

    And finally, we have Dr. John Randall, Chief Technology Officer and 
Vice President of Research at Zyvex Corporation. Dr. Randall has a 
Ph.D. in Electrical Engineering from the University of Houston. He has 
over twenty years of experience in micro- and nanofabrication. He 
joined Zyvex in March of 2001 after fifteen years at Texas Instruments 
where he worked in high resolution processing for integrated circuits, 
MEMS, and quantum effect devices. Prior to working at TI, Dr. Randall 
worked at MIT's Lincoln Laboratory on ion beam and x-ray lithography.

    I look forward to hearing your testimony and entertaining our 
questions toward the conclusion of the hearing.
    Thank you and now I'll turn over the microphone to my distinguished 
colleague, Ralph Hall, for his opening remarks. Mr. Hall.

    Mr. Hall. Thank you, Mike. appreciate it, and I'm honored 
to be here, and I'll be brief. You've covered the waterfront as 
usual. We have a distinguished panel here. I would respect all 
of them. I would not have liked any of them because it's guys 
like you, and women like you, that ruined the curve for me when 
I was at SMU and University of Texas.
    [Laughter.]
    We're honored to have your time because we know you're not 
only giving this time today but it took some time to get here, 
it took some time to prepare for this, and you're generous to 
let the Chairman here have the benefit of your knowledge and 
answer some questions that we will have, that will be part of 
the record, that will be submitted to each Member of our 
Committee. Mike will see that the Republicans have it, and I'll 
see that the Democrats have it, and for any of the Republicans 
that can't read it, I'll have some of my Democrats read it to 
them.
    [Laughter.]
    Seriously, it's an honor to be here with the doctor. He's 
not only a good guy, he's a great doctor, he's a fine Member of 
Congress and one that we all admire and respect. But that 
doesn't mean anything because I even like Dick Armey.
    Let me just be very brief with my statement because I know 
we need to hear the testimony. Of course I'm pleased to be 
here, and we're at a threshold of an age of materials that can 
be fashioned, as they say, atom by atom. As a result of the 
growing capability, the new materials can be designed with 
specified and often very novel characteristics to satisfy 
specific purposes. There are really huge consequences for this 
pursuit for industry, for manufacturers, for medicine and for 
health. A lot of you are aware that the Science Committee's 
been working to develop some bipartisan legislation, and that's 
the way the Science Committee operates. Just as Mike and I are 
working together here today and support one another, we work 
together up there, believe it or not, Republicans and 
Democrats. We had very few split votes up there.
    We work things out and Sherry Boehlert is the Chairman and 
I'm Ranking Democrat. We sit right side by side and we're an 
unusual pair because I represent the Democratic side of it and 
Sherry represents the Republican side, but I can get more votes 
off the Republican side than Sherry can, and he can get more 
votes off the Democratic side than I can, because Sherry is 
kind of a liberal Republican and I'm a conservative Democrat. 
The book on us is that I keep him from spending all the money 
on saving the whales, and he keeps me from drilling on cemetery 
lots.
    [Laughter.]
    There's good offset there for all of us, and the Doc 
referees up there usually. But it's an interesting committee, 
but Boehlert is a very intelligent and a probing-type Chairman 
and a fair Chairman that gives us input.
    I'm glad to see Dr. Feng. I've worked on many situations 
with him, and I've admired him from afar and from up close. 
I've seen him in testimony before committees in Washington, 
I've seen him working with various industries to promote what 
Jeremy Bethum called the greatest good for the greatest number, 
and that's after all what we're here to do today.
    As a lot of you are aware, the Science Committee did work 
that as a bipartisan piece of legislation. I think it passed 
overwhelmingly. It may have even passed by a voice vote when we 
passed out of the House and out of our subcommittees. But it 
passed both Houses of Congress, and this week it was signed 
into law by the President. Did you go up and see him sign it? I 
didn't either. He called my house early the morning that he was 
to sign it, and that's giving me an awful lot of notice.
    Chairman Burgess. At least you got a call.
    [Laughter.]
    Mr. Hall. I didn't get to go up there. Well, he called me 
one time before he signed the trade bill, and he called me that 
time because that trade bill passed the first time, and the 
most important vote we had on it was a 215 to 214 vote, and you 
can imagine how many of us claimed we were that 215th vote, but 
I certainly laid claim to that and I made him believe that 
maybe I was the one that passed it. So he called me to come 
watch him sign it. I asked him then--I didn't ask him, I asked 
Andrew Card who was with him, ``Well, when's he going to 
sign,'' and he said, ``This afternoon at 2 o'clock.'' I had on 
jeans and boots that weren't clean boots and I was about an 
hour and 15 minutes from the airport and he was going to sign 
at 2 o'clock, and I said, ``Well, I just can't come,'' and the 
President said, ``Well, if you'll come, I'll give you a ride 
back.'' Well, not being accustomed to riding on Air Force One I 
decided that I'd try to make it.
    I broke and ran with the boots and jeans and the dirty 
shirt and old jacket I had on thinking that I'd get to my 
apartment and change clothes and get over there in time for the 
signing. Well, I got there in time, I got to my apartment, and 
my son, one of my sons had been there the week before in my 
apartment, driving my car and had taken the keys off that go to 
the apartment and left them inside the apartment. I couldn't 
get in to change clothes and I couldn't go to the White House 
with the way my boots looked. First, they wouldn't have let me 
track in there.
    Anyway, I didn't go and see the signing but I did meet him 
out at the airport to ride home. And, Mike, first thing he 
asked me--I had him for about an hour and a half or two hours 
there just to pound him with every kind of question, suggestion 
I wanted to. I've known him since he was 11. I didn't think 
then he'd ever be President. And I knew him when he was 21, and 
I was positive then he wasn't going to be President. But I 
think we have a good President, and I think it's high time that 
Republicans and Democrats, liberals, conservatives unite behind 
him, support him. We're a nation at war with people who hate 
us. We have a good Commander-in-Chief. I know he's a Godly man. 
I know he's intelligent. I know he's ours. I don't understand 
why Republicans and Democrats both 100 percent don't support 
him. Maybe we'll go back after having been home here for two, 
three, four weeks with a different attitude, because we need to 
get behind him. He's the only Commander-in-Chief we have, and 
he not only needs our support, he needs our prayers.
    Mike, thank you for allowing me to be a part of this today. 
I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    I am pleased to be here in Denton this morning to join the Chairman 
in welcoming our witnesses to this hearing on nanotechnology--which the 
hearing title characterizes as the ``biggest little thing in Texas.''
    We are at the threshold of an age in which materials can be 
fashioned atom-by-atom. As a result of this growing capability, new 
materials can be designed with specified, and often novel, 
characteristics to satisfy specific purposes.
    Nanotechnology will have enormous consequences for the information 
industry, for manufacturing, and for medicine and health. Indeed, the 
scope of this technology is so broad as to leave virtually no product 
untouched.
    As many of you are aware, the Science Committee has been working to 
develop bipartisan legislation to authorize a federal, interagency 
initiative on nanotechnology research and development. This legislation 
recently passed both houses of Congress and, this week, was signed into 
law by the President.
    In addition to setting funding goals, the new statute puts in place 
mechanisms for planning and coordinating the interagency research 
program. It also includes provision for outside, expert advice to help 
guide the research program and ensure its relevance to emerging 
technological opportunities and to industry.
    One major goal of the legislation is to forge research 
relationships between academic institutions and industry in order to 
accelerate progress and facilitate technology transfer in areas with 
high potential for useful applications of commercial value. Therefore, 
I am pleased that we have the opportunity today to hear from both 
academic researchers and industry representatives.
    I hope to learn more about R&D activities on nanotechnology here in 
Texas and to explore how university/industry research partnerships can 
be developed and strengthened. I also encourage our witnesses to share 
their views on how federal efforts to advance nanotechnology could be 
made more effective.
    I want to thank the Chairman for organizing a hearing on this 
emerging technology, which will be of increasing importance for our 
economic growth and for national security. I am pleased to be able to 
join him here today in Denton, and I appreciate the attendance of our 
witnesses and look forward to our discussion.

    Chairman Burgess. Well, I'll be glad to yield the gentleman 
some more time if he wants to continue.
    Mr. Hall. Well, if you have plenty of time, I will; I'll 
just go on.
    [Laughter.]
    The President asked me when I got in there after we ate 
some Texas barbecue flying back, he said, ``Well, all right, 
Hall, what all do you want?'' And I said, ``Well, first, I'd 
like for you to let all my wife's folks out of the federal 
penitentiary.''
    [Laughter.]
    It went on from there. But I thought he needed a little 
levity. The guy is uptight, he's working about 22 hours a day, 
and I didn't want him to let any of them out because they just 
work on their cars out in front of my house.
    [Laughter.]
    Let's get to work. You ready? You have any more time for 
me?
    Chairman Burgess. No, sir.
    Mr. Hall. All right.
    Chairman Burgess. We'll go first to Dr. Rick Reidy, the 
Research Professor at the University of North Texas.

   STATEMENT OF DR. RICHARD F. REIDY, PROFESSOR OF MATERIALS 
       SCIENCE AND ENGINEERING, UNIVERSITY OF NORTH TEXAS

    Dr. Reidy. Mr. Chairman, Congressman Hall, and you are a 
tough act to follow, sir. I wish to thank you and Chairman 
Boehlert for the invitation to speak here today. It is most 
gratifying to hear of Wednesday's signing of the 21st Century 
Nanotechnology Research and Development Act. In the decades to 
come, this commitment to nanotechnology research will 
dramatically impact our daily lives, our economy and our place 
in the world.
    It is clear today that nanotechnology advancements will 
continue in electronics, biotechnology, sensors and 
nanoparticles. I believe that we should continue to see faster, 
smarter and smaller microchips despite some material limits 
looming in the forefront. We shall have new weapons to fight 
and study disease and means to rapidly detect and detoxify 
dangerous chemicals. Beyond our current horizons we can 
speculate that advancements in nanotechnology will change our 
lives as dramatically as PCs and cell phones.
    Effective growth in nanotechnology can be managed by--must 
be managed by balancing support of basic, applied and 
engineering research. While basic research will likely remain 
the province of universities and national laboratories, more 
applied efforts must involve contributions from industry. 
Universities must be open to non-traditional collaborations to 
encourage the infusion of industry-specialized knowledge and to 
ease technology transfer. As industry continues to lower the 
prominence of the R in research and development, it is 
incumbent on government and industrial consortia to support 
universities as R&D representatives and to fund university 
purchases of equipment in user facilities to expand the 
capabilities of local industry. It is critical to develop and 
maintain a talented and trained work force. If demand for 
researchers and technologists exceeds our supply, then growth 
will slow and industry will seek talent from beyond the 
borders. Neither alternative is in the best interest of the 
United States. We should prepare for this coming need as our 
nation did in the late '60's and early '70's during the space 
race.
    Some universities have very well staffed--sorry, I'm trying 
to coordinate these two things. I'm not as good as I--some 
universities have well staffed industrial liaison organizations 
to market the intellectual wares of their faculty. This model 
has led to many valuable patent licensing agreements and start-
up companies. For universities without such infrastructure, 
this business model may not be practical. Integrated joint 
research ventures in which basic and applied research are 
conducted at the university and product development remains 
with industrial partners may be more suitable for many 
universities.
    My colleagues, Dennis Mueller, here at UNT, Dr. Moon Kim is 
in the audience, at UT, Dallas, and Dr. Phil Matz, Texas 
Instruments, and I have settled on a collaboration that we 
believe is a win-win scenario for both industry and university. 
This work focuses--our work focuses on nanoscale properties of 
integrated circuit insulators and the development of new 
insulator properties--new insulator materials with controlled 
nanometer-size structures. This research is supported by the 
Grant Opportunities for Academic Liaison with Industry, short 
GOALI, Program. In addition to getting funding from the 
National Science Foundation, Texas Instruments has agreed to 
provide substantial in-kind support, including access to 
instrumentation and wafers. As both co-investigator and Texas 
Instrument liaison, Dr. Matz meets with both students and 
faculty regularly to collaborate on research topics and 
facilitate experiments at Texas Instruments facilities.
    All investigators have been granted access to the relevant 
facilities at Texas Instruments; in fact, TI has actually 
allowed me to have an office where I can coordinate experiments 
and discuss research topics with TI personnel. This arrangement 
efficiently integrates the need of both Texas Instruments to 
conduct long-term research and provides UNT students and 
faculty the opportunity to work on very practical problems and 
to directly interface with industry.
    Federal support of University of North Texas spans many 
areas. Specifically, in Fiscal Year 2003, UNT has received over 
$760,000 in federal nanotechnology research funds, and thanks 
to Congressman Burgess will receive $3.1 million from the 
Department of Defense to work on this facility here and buy a 
high resolution electron microscope. It is a goal of our 
university to play a major role in the development of 
nanotechnology and subsequent job creation in the North Texas 
region. The formation of CART and the purchase of equipment 
will permit UNT to study materials on the atomic scale, 
collaborate with local industry, and incubate new technology 
companies.
    It is critical that we examine issues of outreach. Current 
budget constraints at state and local levels require that 
changes in curriculum be at a minimum of revenue neutral. We 
can simply not ask local schools to pay for any of the new 
technology we want to introduce or any new curricula we want to 
introduce. It's something that has to come from the federal 
level. We must also make it worth the teachers' time to spend 
time to learn all these things. Teachers, as we are aware, are 
hard-working enough.
    One of the other issues I think that's relevant to discuss 
today is that a large fraction of math and science teachers 
countrywide do not actually have degrees in their subject area, 
and those that have them have an average of about 15 years 
experience, so we must consider the fact that many of them are 
trained as of 1988, and any new curricula that we try to share 
with them must go back on that information. These are hard-
working people and very learned and very interested in teaching 
our children, but we must include the fact that they need to be 
brought up to speed in a lot of these programs.
    I'd like to speak kind of personally. One of the programs 
that got cut in the 1980's was the High School National Science 
Foundation Summer Science Program. I can attest to its value 
because I wouldn't be here today if it were not for that 
program. Summer Science Program for High School Juniors similar 
to the current National Science Foundation Research Experience 
for Undergraduate Program I believe should be instituted at 
universities across the country.
    I believe one of the other issues regarding outreach is 
that there are simply not enough national technology centers, 
centers of excellence, to actually spread the outreach across 
the country. I believe this is the responsibility of all 
nanotechnologists and all people working in nanotechnology to 
share this information at local schools. I don't think it 
should be something that spreads from specific locuses, I 
believe it's all our responsibility.
    I believe regarding our potential work forces, there are 
current shortages in state budgets that are massively affecting 
our local school districts. For example, several school 
districts in North Texas are considering cutting back on 
advanced placement courses. While the pressure on local school 
boards are immense, such cutbacks are shortsighted and could 
have long-term effects on math and science education. A longer-
term suggestion is to increase the number and improve the 
quality of science and engineering students for our future. I 
believe that we are in desperate need of funding to increase 
the number of trained middle and high school math and science 
teachers. I believe that science curriculum coordination should 
include input from industry personnel who are trained in 
research. I believe that university state and engineering 
programs should be expanded to include some of the new areas of 
research. We need to introduce curriculum that actually follows 
along with that research.
    I believe also an interesting point is that we also need to 
look--and if I may speak off the cuff for just a moment--the 
university research and engineering programs should also be 
looking at K through 20. We need to be looking at people beyond 
school systems. I think it's important that as educators we 
educate the public because people are not going to vote, people 
are not going to support technology unless they understand it. 
If you look at some of the movements in Europe involving 
genetically modified foods, there is a groundswell against a 
lot of technology. And I'm not saying that they're right, I'm 
not saying that they're wrong. As Congressman Hall pointed out, 
this is a non-partisan sort of discussion, but I think it's 
critical that we educate the public so the information is 
available.
    So I thank you, Congressman Burgess, for inviting us today, 
and I appreciate the opportunity to talk with you.
    [Applause.]
    [The prepared statement of Dr. Reidy follows:]

                 Prepared Statement of Richard F. Reidy

Introduction

    Nanotechnology will remain an extremely fertile research arena for 
the foreseeable future. It is the eventual progression of man's quest 
to control the basic building blocks of our world. The Apollo program 
expressed our desire to journey beyond Earth; nanotechnology evinces 
our curiosity preceding the microscopic. Like the space program, the 
world of the ultra-small can spur the imagination and vocations of 
budding scientists. Fostering this resource is critical to the future 
advancement of nanotechnology. Creating the ``destiny of discovery'' 
that the Lunar Landing evoked must be a parallel mission of the 
National Nanotechnology lnitiative as we can ill-afford to make this a 
race for the select few. The National Science Foundation has long held 
that K-12 outreach was a critical element of academic research. 
Programs to cultivate youth interest should be as creative and fresh as 
our research. Directing new talent into science and engineering will 
provide the researchers necessary to meet the ever-expanding challenges 
in nanotechnology.
    What new advances should we expect from nanotechnology? The: 
``possible'' of a few years ago has now become reality. I believe that 
the history of integrated circuits points to an amazing future. The 
semiconductor industry has repeatedly met the lofty expectations of 
Moore's Law (i.e., the number of transistors in a chip double every 1-2 
years) despite facing extremely difficult issues with each generation 
of microchip. The power of personal computers exemplify this 
advancement; the Intel 486, the premier PC chip just over a decade ago, 
contained approximately 1.2 million transistors while the current 
Pentium 4 has over 42 million. I have been fortunate to be a member of 
the International Technology Roadmap for Semiconductors (the 
organization that plots development and expectations of future 
technology requirements), and I marvel at the planning and knowledge 
breadth that created this record of success. While many issues loom 
within the next decade as potential ``show stoppers'' to the progress 
of continued microchip development, past performance and sheer mass of 
talent will likely overcome these issues.
    The discovery and development of carbon nanotubes offer an 
additional hopeful scenario for the progression of nanotechnology. In 
less than a decade, these nanometer scaled structures have been studied 
for a wide range of applications crossing many disciplines: high 
strength composite materials, nanowires, artificial kidneys, chemical 
weapons sensing, solar energy, and non-volatile memory. The breadth of 
this research highlights the need for cross-disciplinary nanotechnology 
research teams and the cooperative efforts of industry, government, and 
universities.
    University-based research programs differ somewhat from industry 
due to the graduation of researchers and funding cycles of 1-4 years. 
These aspects necessitate a critical need for initial kickoff funding. 
The next section describes this process.

Summary of University Research Requirements and Output Dependencies

    The schematic below is an abbreviated outline of nanotechnology 
research requirements and potential outcomes. All research of merit 
must have some initial funding to pay students, buy materials and 
maintain equipment. Excellent ideas are ``grounded'' without student 
researchers, appropriate equipment and instrumentation, and working 
materials. In the past, most federal agencies required some threshold 
of previous work to consider a program for funding. Because much of the 
nanoworld is unexplored, this burden of proof has lessened 
considerably. This ``lower bar'' permits rapid testing of ideas, but 
increases the risk of these ventures. To account for this risk, many 
nanotechnology proposals are funded as one-year exploratory grants. 
While exploratory grants will support many strong research ideas, many 
more will scramble for internal or other sources of funding to initiate 
research. Research institutions should be encouraged to provide 
sufficient funding for researchers to overcome the ``proof or concept'' 
burden necessary to garner external funding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Funding for equipment and instrumentation presents another issue. 
The study of the very small requites specialized and often expensive 
instrumentation. While some large well-funded institutions can often 
support purchases of six and seven figure capital equipment, smaller 
institutions must rely on federal and State outlays to support these 
purchases. The recent work by Rep. Burgess to support the purchase of a 
high-resolution transmission electron microscope here at UNT is an 
example of such an outlay. Major research instrument funding from the 
National Science Foundation is highly competitive, and strong proposals 
have often gone unfunded. It is critical that financial support of 
major equipment purchases be accessible to all institutions with a 
proven need. Without accessibility to specialized instrumentation, 
nanotechnology will become the province of only a few universities. To 
summarize, issues of concern are:

        <bullet> initial funding to ``kickoff'' research and prove 
        basic concepts

        <bullet> accessibility of instruments necessary to develop 
        nanoscaled materials and systems.

Responses to Questions

How significant of an impact will nanotechnology have on U.S. economic 
growth and job creation in the coming decades? In what industry areas 
will the impact be most dramatic? What challenges exist that may slow 
or limit the growth and influence of nanotechnology?

    Advancements in nanoscience will permit faster, smarter, and more 
selective techniques to overcome both mundane and exotic problems. 
Powders that rapidly detoxify chemical weapons, frictionless surfaces, 
cancer drugs that repair defected gene sequences, and clothing that 
regulates skin temperature are all topics of research interest. From 
process control to smaller and smarter computers, few automated 
industries will not benefit from nanotechnology advancements. However, 
the industries most likely to see dramatic improvements are electronics 
and biotechnology.
    Recent estimates suggest that one million jobs will result from 
applications of nanotechnology. Over the last four years, venture 
capitalists have invested over $900 million in nanotechnology--$386 
million in 2002. The current environment is ripe for the creation of 
nanotechnology startup ventures. In addition to its focus on 
nanotechnology research, the newly formed Center for Advanced Research 
and Technology (CART) can become an incubator for small technology 
companies. In this role, CART can foster technology development and job 
growth in the North Texas region.

Limits to Nanotechnology Growth

    Effective growth can be managed by balancing support of basic, 
applied, and engineering research. While basic research will likely 
remain the province of universities and national laboratories, more 
applied efforts must involve active contributions from industry. 
Universities must be open to non-traditional collaborations to 
encourage the infusion of industry-specialized knowledge and to ease 
technology transfer. As industry continues to lower the prominence of 
the ``r'' in research and development, it is incumbent on government 
and industrial consortia to support universities as R and D 
alternatives and to fund university purchases of ``dual use'' equipment 
to expand the capabilities of local industries.
    It is critical to develop and maintain a trained workforce. If 
demand for researchers and technologists exceeds our supply, then 
growth will slow or industry will seek talent from outside the U.S. 
Neither alternative is in the best interest of the U.S. We should 
prepare for this coming need as the Nation did in the late 1950's and 
early 1960's during the space race.

What, in your experience, are the best practices to help facilitate the 
transfer of basic research results to industry? To what extent has UNT 
partnered with industry on nanotechnology research and development 
challenges, and how can such collaborations be made more effective?

Transfer of Basic Research to Industry

    Some universities have well-staffed industrial liaison 
organizations to market the intellectual wares of their faculty. This 
model has led to many valuable patent licensing agreements and startup 
companies. For universities without such infrastructure, this business 
model may not be practical. Integrated joint research ventures in which 
basic and applied research are conducted at the university and product 
development remains with the industrial partner may be more suitable 
for many universities. Contracts detailing confidentiality, 
intellectual property rights, and licensing agreements permit sharing 
of information and experience that will greatly assist the university 
researchers. Planning and status meetings should include as many 
participants as possible, including graduate researchers. These same 
practices would be effective in business incubators.

UNT Partnerships With Industry

    UNT has initiated nanotechnology collaborations with a range of 
industrial partners: Carbon Nanotechnologies Incorporated, Kraft Foods, 
Clarisay, Texas Instruments, as well as industrial consortia such as 
Semiconductor Research Corporation and International Sematech.
    My work with colleagues Dr. Dennis Mueller of UNT, Dr. Moon Kim of 
UT-Dallas, and Dr. Phil Matz of Texas Instruments focuses on the 
nanoscale properties of integrated circuit insulators and the 
development of new insulator materials with controlled nanometer-sized 
structures. This work is supported by the National Science Foundation 
``Grant Opportunities for Academic Liaison with Industry'' (GOALI) 
program. In addition to funding from NSF, Texas Instruments (TI) has 
agreed to provide substantial in-kind support including access to 
instrumentation and processed wafers. As both a co-investigator and TI 
liaison, Dr. Matz meets with both students and faculty regularly to 
collaborate on research topics and facilitate experiments at TI 
facilities. All of the investigators have been granted access to 
relevant facilities, and TI has provided me with an office to stage and 
coordinate experiments. This arrangement efficiently integrates the 
need of Texas Instruments to conduct long-term research and provides 
UNT students the opportunity to work on very practical problems and to 
directly interface with industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Has federal support for your research been effective at helping UNT 
achieve its goals? How might Congress strengthen the structure, funding 
levels, and focus of the National Nanotechnology Initiative?

Federal Support to Achieve UNT Goals

    In FY 2003, UNT received over $760,000 in federal nanotechnology 
research funding and $3.1 million from the Department of Defense for 
the establishment of the Center of Advanced Research and Technology. 
These funds produced very interesting results and have leveraged 
additional support from other agencies. It is the goal of our 
university to play a major role in the development of nanotechnology 
and the subsequent creation of jobs in the North Texas region. The 
formation of CART and the purchase of a high-resolution transmission 
electron microscope will permit UNT to study materials on the atomic 
scale, collaborate with local industry, and incubate new technology 
companies.

Congressional Strengthening of Structure, Funding Levels and Focus of 
                    NNI

    Funding for nanotechnology will need to increase as new promising 
avenues of research are revealed. Periodic assessment of how budgets 
are meeting needs, especially in the areas of outreach, will be 
necessary. While the NNI has included workforce preparation as part of 
its mission, there exist several key issues that affect the integration 
of nanotechnology course material into current K-I2 curriculum:\1\
---------------------------------------------------------------------------
    \1\ Many of these discussion points are described in ``Extending 
Outreach Success for the National Nanoscale Science and Engineering 
Centers--A Handbook for Universities,'' James G. Batterson of the 
National Nanotechnology Coordinating Office, January 2, 2002.

        <bullet> Current budget constraints at State and local levels 
        require that changes in curriculum would inflict cost increases 
        on those who are already facing funding cutbacks. Such changes 
        should be at a minimum revenue neutral; therefore, funding of 
        new materials or teacher education should be absorbed by NNI 
---------------------------------------------------------------------------
        (under the auspices of Centers of Excellence or NIRT grants).

        <bullet> Likewise, compensation to teachers for their 
        involvement in nanotechnology summer workshops should reflect 
        these recent restrictions in funding. Simply put, we must make 
        it financially worth their time to participate. Teachers are 
        often seriously underpaid, and these programs need incentives 
        to induce the necessary levels of participation.

        <bullet> A large fraction of math and science teachers does 
        not have degrees in their subject area. The average teacher has 
        15 years experience; therefore, most teachers have not had 
        formal science training since 1988. It is critical that teacher 
        outreach programs involve language and context commensurate 
        with these issues. These are experienced professionals who are 
        willing to learn, but, in many cases, may need some leveling 
        materials in the initial stages. Being cognizant of our 
        outreach audience's background is critical to effectively 
        convey the possibilities of nanotechnology research. It is our 
        goal to infuse an enthusiasm to teachers that will carry over 
        to their students.

        <bullet> One of the best ways to influence career choices of 
        young people is through summer job experiences. As a product of 
        NSF summer science program, I can attest to the value of my 
        first real experience with research. Summer science programs 
        similar to the NSF REU (Research Experience for Undergraduates) 
        should be instituted at universities across the Nation. 
        Programs will have specialties based on their research. 
        Students will be responsible for room and board although 
        financial aid should be available.

    I believe that there are simply not enough Nanotechnology Centers 
of Excellence to conduct nationwide outreach programs. Extending this 
responsibility to other nanotechnology grant holders would expand the 
scope of the program. To avoid conflicting motivations, additional 
funds should be available for outreach for non-center grant holders. 
The funding of these education programs should be evaluated separately 
from the research aspects of the grants and could be funded after the 
research grants expire. Outreach programs are difficult to set up and 
critical to development of a trained workforce; therefore, existing 
programs should be nurtured and supported without interruptions if 
possible.

Is the U.S. education system currently producing an adequate number of 
people with the skills needed to conduct research in nanotechnology and 
to work in industry on the commercialization of nanotechnology 
applications? What is the longer-term outlook for the nanotechnology 
workforce, and what changes, if any, should be made to the current 
education system to ensure these workforce needs are met?

Capabilities of U.S. Educational Institutions to Meet Future Needs

    At present, elementary, secondary, community college and university 
systems are not producing graduates with the skill sets to meet 
nanotechnology challenges. In part this failure is a hangover from the 
1990's--business degrees and computer science were preferred over 
natural science and engineering degrees as means to rapid wealth. The 
pendulum will no doubt swing back toward engineering and natural 
sciences; however, we lack the teachers at all levels to meet our 
growing need.
    The current shortages in State budgets are impacting local school 
districts. For example, several school districts in North Texas are 
considering cutting back on advanced placement courses. While the 
pressures on local school boards are immense, such cutbacks are 
shortsighted and could have long-term effects on math and science 
education. Some longer-term suggestions to increase the number and 
improve the quality of science and engineering students:

        <bullet> Federal, State, and local funding outlays are 
        necessary to increase middle and high school math and science 
        teachers.

        <bullet> Science curriculum coordination should include 
        personnel with research experience.

        <bullet> Science and engineering doctoral students should be 
        encouraged to teach at the secondary levels.

        <bullet> University science and engineering programs should be 
        expanded to include new areas of research.

        <bullet> K through 20+ pedagogy should encourage cross-
        disciplinary problem-solving and collaboration.

Summary

    Nanotechnology will no doubt change our world, but it presents new 
challenges to our educational system, our industries, and our Federal, 
State and local governments. Many important issues regarding the 
funding and value of nanotechnology must be decided by an educated and 
informed populace. It is the responsibility of the National 
Nanotechnology Initiative and its supported researchers to make new and 
exciting discoveries and to prepare our nation to meet the challenges 
of this new world.

                     Biography for Richard F. Reidy

    Dr. Richard F. Reidy is Assistant Professor of Materials Science 
and Engineering at the University of North Texas. Dr. Reidy has a Ph.D. 
in Metals Science and Engineering from Penn State University and BA in 
Chemistry/Biochemistry from Rice University. Before joining the 
University of North Texas, he worked on nanoporous films for chemical 
weapons detection at the U.S. Army Chemical and Biological Defense 
Command, Aberdeen, MD. He is currently developing nanostructured 
materials and processing methods for semiconductor applications 
supported by the National Science Foundation, Texas Instruments, and 
International Sematech.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Burgess. Thank you, Dr. Reidy.
    We'll now hear from Dr. Da Hsuan Feng, Vice President for 
Research and Graduate Education at the University of Texas at 
Dallas.

STATEMENT OF DR. DA HSUAN FENG, VICE PRESIDENT FOR RESEARCH AND 
        GRADUATE EDUCATION, UNIVERSITY OF TEXAS, DALLAS

    Dr. Feng. Mr. Chairman and Congressman Hall, it is indeed 
an honor and privilege for me to be here today to deliver this 
testimony. We in the Metroplex in particular, and the United 
States in general, are very fortunate to have Congressional 
Members and leaders--and other leaders of the Nation, such as 
yourselves, who have led in promoting nanotechnology in the 
region and the Nation. Countries around the world have followed 
the lead of our nation in making investment in nanotechnology a 
national priority.
    In human history, whenever a fundamentally new type of 
material emerged a new economy was born. This certainly 
happened during the stone, iron, bronze and plastic ages. 
Instead of pertaining to a single material, nanotechnology 
provides the opportunity to so fundamentally change virtually 
any material that a groundswell of new businesses will arise. 
Those countries and companies that do not lead in the 
development and application of nanotechnology are at great risk 
of becoming non-competitive. Recent avalanching advances in the 
ability to manipulate materials at the sub-microscopic scale 
mean that the materials of the future can have properties that 
were only imagined in the past. The vision of taking nations' 
nanosized building blocks to create manmade materials first 
proposed by the legendary Richard Feynman some 44 years ago is 
the fundamental guiding principle of this now exploding field 
of nanotechnology.
    The Nanotechnology Institute of the University of Texas at 
Dallas is a new one. It was founded only two years ago. We did 
this at the university by strategically hiring some of the best 
people in the Nation or in the world to propel our activities 
in this arena. The institute is led by its Director Ray 
Baughman, the Deputy Director Anvar Zakhidov and Dr. Alan 
MacDiarmid, a Nobel laureate in Chemistry in 2000 and holder of 
the James Von Ehr Distinguished Chair in Science and 
Technology. I'm extremely pleased to say that by working as a 
team, which includes our senior management of UTD, the various 
schools within the university and the technological and 
economic planning communities of North Texas, the institute has 
grown rapidly to include some 60 people from all over the world 
now. We are inspiring and educating students of all ages of the 
work force and creating knowledge and technologies that will 
generate new businesses and job growth. Physicists, chemists, 
biologists, ceramicists, metallurgists and mathematicians are 
teaming with engineers to solve problems. We're eliminating 
boundaries that interfere with the transition from science to 
technology and from technology to product. The Nanotech 
Institute has an atmosphere of excitement, fun and creativity 
that inspires researchers from 8th graders to senior citizens 
working in our laboratories in the quest of new basic 
understanding and new technologies.
    Finding and effectively utilizing new energy sources 
without damaging the environment is one of the primary 
challenges of our nation and the world. For this reason, the 
Nanotech Institute has identified nanoenergetics as an area of 
focus, and there are four of them. While every category 
deserves a full and detailed description, within the time 
constraint, I will merely underscore that one important aspect 
is the assembly of nanofibers into high performance fibers that 
can be used in building devices. All known bulk synthesis 
methods produce carbon single-walled nanotubes as impure soot. 
An important challenge is to develop practical technologies for 
transforming this soot into continuous fibers that can have 
useful properties for important applications, such as 
converting waste thermal and mechanical energy to electrical 
mechanical energy absorption in safe harnesses and energy 
storage in textiles for the soldier. By using a novel spinning 
apparatus, spinning solutions and spinning coagulants, the 
scientists at UTD's NanoTech Institute have spun nanotube 
fibers with record lengths, tensile strengths and energy-to-
break. No known fibers of any type are nearly as tough. The 
landmark importance of the advances published in the 
prestigious journal called Nature was indicated by news 
coverage from all over the world, from here to Europe to Asia.
    Mr. Chairman, in the late '70's, I was privileged to spend 
a year as a visiting professor at the Niels Bohr Institute at 
the University of Copenhagen, then one of the world centers for 
nuclear science research. At the NBI, led by two Nobel 
laureates, there was great scientific excitement, great works 
and discoveries were made routinely by scientists all over the 
world. It was quite an intellectual atmosphere. I am therefore 
extremely pleased to observe a similar intensity of 
intellectual excitement about a new and fast-paced field of 
science and technology permeating in UTD's NanoTech Institute.
    Mr. Chairman, in the long run I believe that most products 
will depend upon nanotechnology, from products for detecting 
and treating cancer, to smaller and faster computers, to 
improved sensors for homeland security and to the skins of our 
most advanced aircraft. Anytime fundamentally new materials and 
exciting properties are created new business can result. 
Nanotechnology is generic. Avalanching abilities and 
manipulating of self-assembling on the nanoscale are creating 
fundamentally new materials of all kinds, from metals, 
semiconductors, superconductors to even plastics. An economic 
base of new materials and devices can simply offer the ability 
to carry out our traditional tasks more efficiently and, more 
often than not, to carry out tasks that were previously 
impossible. Also, it can mean having materials that are 
multifunctional like the nanotube fibers at UTD, which might 
eventually be used in the soldiers' uniform as both a power 
source and for antiballistic protection.
    Material producers are wary, on the other hand, of risking 
money on improving and upscaling material production until 
customers are clearly identified, and users are wary of 
investing money on evaluating the materials in the products 
until they can be guaranteed low material costs. Cradle-grave 
assurance of material and product safety is another important 
issue for nanotechnology-based materials but probably no more 
than for other materials and chemicals.
    The evolution of nanotechnology advances into new economics 
is still in its early phase, but there are already noteworthy 
successes. Overcoming the barriers between early technology 
breakthroughs and products is always challenging, and targeted 
government funding can make the difference between shelf 
technology and a commercial success. Two years ago at a 
nanotechnology conference in Richardson, Jack Kilby, one of the 
scientific giants of the 20th century from Texas Instruments 
and the year 2000 Nobel laureate for discovering the integrated 
circuit, said, and I paraphrase, ``If it was not for the 
military, the integrated circuit may still be on the shelf 
today.'' In a sense, the discoveries of nanotechnology are 
similar to IC discoveries in the early days. Achieving 
commercial applications may or may not be straightforward 
depending on the technology. The best practice is for 
universities to partner early on with the most appropriate 
companies. Throwing early technology results over the fence to 
industry generally doesn't work, so finding ways to facilitate 
the partnering of industry and universities is critical. We are 
doing that at the moment and sometimes with great difficulty 
but we are working very hard in that direction.
    The successes achieved by UTD's Nanotech Institute research 
programs would not have existed were it not for the support of 
various federal agencies as well as the visionary leadership of 
statesmen such as you. The same is true for virtually all the 
major nanotechnology efforts in universities that are ongoing 
in our country today. Continuation and strengthening of this 
support is absolutely critical for our nation's maintaining and 
increasing its leadership role. Industrial managers, especially 
in large companies, are often forced to focus on next year's 
product so that research commitment to revolutionary products 
is severely weakened.
    Targeted funding, such as that of NIST ATP Program, can 
help industry take risks that are in the longer-term interests 
of our economy and the companies and facilitate partnering 
between industries and universities. Programs for small 
business like the SBIR Program are critical, and increases in 
Phase I funding levels could provide the industrial focus that 
enables success.
    Mr. Chairman, I do not believe that I am exaggerating to 
say that many of our research universities are among the best 
in the world. However, the number of Americans obtaining Ph.D.s 
has not grown with our population and with the increasing needs 
of our industry. Indeed, our nation's intellectual and economic 
growth has long been closely linked to our ability to absorb 
the best and the brightest from all corners of the globe. 
Innovations carried out in American university laboratories are 
powered by students, postdocs and faculty members from across 
the United States and from all regions on Earth, and many of 
these individuals join American industry to forge the products 
of the future.
    At the Nanotech Institute of UTD, it is just a microcosm of 
this trend. For example, at our laboratories, you may find 
nearly around the clock, in fact around the clock, American 
students, postdocs, faculty members, community members working 
hand in hand with their colleagues from Russia, Uzbekistan, 
China, Korea, Philippines, Brazil, India, Germany, Ireland, 
Spain, Australia and many other countries.
    Mr. Chairman, in the wake of the war on terror, a situation 
has arisen because of the serious limitation of visas issued to 
countries that are becoming the world's technical powers. At 
the most obvious level, the ability of international scientists 
to attend scientific conferences in the United States has 
become problematic. Often even invited speakers are unable to 
receive a visa in time. Unless this visa problem is corrected, 
I fear that many international conferences will rarely be held 
in this country so that our students, technologists and 
industrialists will lose rapid access to information. The 
world's brain drains of the past have served to enrich the 
United States, and I fear that the present visa crisis is now 
closing our borders to much of the intellectual powers around 
the world. We are in danger of no longer being a technology 
melting pot.
    At the same time as we are seriously restricting visas for 
other countries, American companies are creating major research 
laboratories elsewhere. Business is usually done with those you 
know, often face-to-face interactions, and I further fear that 
the visa problem will eventually decrease our ability to 
conduct commercial interactions with rapidly developing 
economies of the world. Mr. Chairman, the visa issue----
    Chairman Burgess. Let me just--I'll stop you there if I 
could, and we can certainly get that in the record, but I want 
to be respectful of everyone's time.
    Dr. Feng. Sure. Thank you.
    [The prepared statement of Dr. Feng follows:]

                  Prepared Statement of Da Hsuan Feng

    This testimony by Da Hsuan Feng (Vice President of Research at the 
University of Texas at Dallas) comprises (A) Overview of the Research 
and Development Activities of the NanoTech Institute and (B) Responses 
to Addressed Questions.

    Dear Congressional Members: It is indeed an honor and privilege for 
me to be here today to deliver this testimony. As you know, my 
colleague, Professor Ray Baughman, UTD's NanoTech Institute director 
was invited to be here, but had the prior obligation of serving on a 
National Science Foundation panel today.
    We in the Metroplex are very fortunate to have Congressional 
Members, such as yourselves, who have led in promoting nanotechnology 
in the region and the Nation. Countries around the world have followed 
the lead of our nation in making investment in nanotechnology a 
national priority.
    In human history, whenever a fundamentally new type of material 
emerged, a new economy was born. This certainly happened during the 
Stone, Iron, Bronze, and Plastic Ages. Instead of pertaining to a 
single material, nanotechnology provides the opportunity to so 
fundamentally change virtually any material that a groundswell of new 
businesses will arise. Those countries and companies that do not lead 
in the development and application of nanotechnology are at great risk 
of becoming noncompetitive. Recent avalanching advances in the ability 
to manipulate materials at the sub-microscopic scale mean that the 
materials of the future can have properties that were only imagined in 
the past. Taking an example from biology, nature has long been 
manipulating virus and cells at the submicroscopic level. This ability 
of nature to operate at a very small scale eventually cascaded to the 
diverse functionality of higher organisms. However, it took 
approximately 600 million years after the formation of the Earth for 
nature to achieve the single cell, and less than a million years 
afterwards to develop the first organism. Materials made possible by 
nanotechnology will include those having some of the capabilities of 
biological systems, like the ability to appropriately change properties 
in response to the environment and to self-repair. This vision of 
taking nature's nanosize building blocks to create manmade materials, 
first proposed by the legendary Richard Feynman some 44 years ago, is 
the fundamental guiding principle of this now exploding field of 
nanotechnology.

A. Overview of the NanoTech Institute at the University of Texas at 
                    Dallas

    The NanoTech Institute of the University of Texas at Dallas was 
founded merely two years ago. We did this by strategically hiring some 
of the best people in the world to propel our activities in this arena. 
The Institute is led by its Director, Dr. Ray Baughman, its Deputy 
Director, Dr. Anvar Zakhidov, and Dr. Alan MacDiarmid, a Nobel laureate 
in Chemistry in 2000 and holder of the James Von Ehr Distinguished 
Chair in Science and Technology. I am extremely pleased to say that by 
working as a team, which includes senior management of UTD, the various 
Schools within the university, and the technological and economic 
planning communities in North Texas, the Institute has grown rapidly to 
include more than 60 people from all over the world. We are inspiring 
and educating students of all ages for the work force and creating 
knowledge and technologies that will generate new businesses and job 
growth. Physicists, chemists, biologists, ceramicists, metallurgists, 
and mathematicians are teaming with engineers to solve problems. We are 
eliminating boundaries that interfere with the transition from science 
to technology, and from technology to product. The NanoTech Institute 
has an atmosphere of excitement, fun, and creativity that inspires--
researchers from 8th graders to senior citizens work in our 
laboratories in the quest for new basic understanding and new 
technologies.
    Finding and effectively utilizing new energy sources without 
damaging the environment is one of the primary challenges of our nation 
and the world. For this reason, the Nanotech Institute has identified 
NanoEnergetics as an area of focus. We are using carbon nanotube fibers 
for the:

        (a) transformation of electrical energy to mechanical energy 
        in nanotube artificial muscles,

        (b) reversible transformation of electrical energy to chemical 
        energy in supercapacitor and battery fibers that can be woven 
        into electronic textiles,

        (c) transformation of mechanical energy to elastic energy and 
        thermal energy in super-tough carbon nanotube composite fibers, 
        and

        (d) transformation of waste thermal energy into electrical 
        energy in electrochemical thermal energy harvesting devices.

    While every category deserves a full and detailed description, 
within the time constraint, I will merely underscore that one important 
aspect is the assembly of nanofibers into high performance fibers that 
can be used in building devices. All known bulk synthesis methods 
produce carbon single walled nanotubes as impure soot. An important 
challenge is to develop practical technologies for transforming this 
soot into continuous fibers that have useful properties for important 
applications, such as converting waste thermal and mechanical energy to 
electricity, mechanical energy absorption in safety harnesses, and 
energy storage in textiles for the soldier. By using a novel spinning 
apparatus, spinning solutions, and spinning coagulants, the scientists 
in UTD's NanoTech Institute have spun nanotube fibers with record 
lengths, tensile strengths, and energy-to-break (toughness). No known 
fibers of any type are nearly as tough. The landmark importance of the 
advance (published in Nature and reported in Science) was indicated by 
news coverage from around the world (Wall Street Journal, New York 
Times, U.S. Today, China Peoples Daily, Discover Magazine, NBC and ABC 
television, Voice of America, Science, Physics Today, C&E News, etc.).
    Mr. Chairman, in the late seventies, I was privileged to spend a 
year as a visiting professor in the Niels Bohr Institute in University 
of Copenhagen, then one of the world centers of nuclear science 
research. At the NBI, led by the two Nobel laureates, there was great 
scientific excitement there, and great works and discoveries were made 
routinely by scientists from all over the world. It was quite an 
intellectual atmosphere. I am therefore extremely pleased to observe a 
similar intensity of intellectual excitement about a new and fast paced 
field of science and technology, permeating in UTD's NanoTech 
Institute.

B. Questions and Responses

        <bullet> How significant of an impact will nanotechnology have 
        on U.S. economic growth and job creation in the coming decades? 
        In what industry areas will the impact be most dramatic? What 
        challenges exist that may slow or limit the growth and 
        influence of nanotechnology?

    Mr. Chairman, in the long-term, I believe that most products will 
depend upon nanotechnology, from products for detecting and treating 
cancer, to smaller and faster computers, to improved sensors for home 
land security, and to the skins of our most advanced aircraft. Anytime 
fundamentally new materials with exciting properties are created, new 
businesses can result. Nanotechnology is generic, avalanching abilities 
in manipulating and self-assembling on the nanoscale are creating 
fundamentally new materials of all kinds--from metals, semiconductors 
and superconductors to plastics. An economic base of new materials and 
devices can simply offer the ability to carry out traditional tasks 
more efficiently, or more often then not, to carry out tasks which were 
previously impossible. Also, it can mean having materials that are 
multifunctional, like nanotube fibers fabricated at UTD's NanoTech 
Institute, which might eventually be used in a soldier's uniform as 
both a power source and for antiballistic protection. Nanotechnology 
also can provide intelligent materials, like the NanoTech Institutes 
nanotube sheets, which can detect the composition of the fuel mixture 
in an engine and automatically open or close a valve--all without the 
need for an external power source. Mr. Chairman, advances in 
nanotechnology will likely impact virtually all industries, from 
materials, clothing, aerospace, communications, biotechnology, and 
computing industries to industries that have not yet been conceived. As 
for any new area, there are a host of challenges that must be solved. 
One is the high cost of producing materials on laboratory scales. 
Materials producers are wary of risking money on improving and up-
scaling material production until customers are clearly identified, and 
users are wary of investing money on evaluating the materials in their 
products until they can be guaranteed low material cost. Cradle-grave 
assurance of material and product safety is another important issue for 
nanotechnology-based materials, but probably no more than for other 
materials and chemicals.

        <bullet> What in your experience are the best practices to 
        help facilitate the transfer of basic research results to 
        industry? To what extent has the Institute partnered with 
        industry on nanotechnology research and development challenges, 
        and how can such collaborations be made more effective?

    The evolution of nanotechnology advances into new economies is 
still at the early phase, but there are already noteworthy successes, 
like the commercialization of remarkable biomedical test kits, 
multiwalled nanotubes as conducting additives for plastics, and 
nanofiber coated textiles for ordinary clothing (jeans). Overcoming the 
barriers between early technological breakthroughs and products is 
always challenging, and targeted governmental funding can make the 
difference between a shelved technology and a commercial success. Two 
years ago, at a nanotechnology conference in Richardson, Texas, Jack 
Kilby, one of the scientific giants of the 20th century from Texas 
Instruments and the year 2000 Nobel laureate for discovering the 
integrated circuit (IC) said that, and I paraphrase, ``if it was not 
for the military, the IC may still be on the shelf today.'' In a sense, 
the discoveries of nanotechnology are similar to the IC discoveries in 
the early days. Achieving commercial application may or may not be 
straightforward, depending upon the technology. The best practice is 
for universities to partner early on with the most appropriate 
companies. Throwing early technology results over a fence to industry 
generally doesn't work, so finding ways to facilitate the partnering of 
industry and universities is critical. UTD is partnering with a host of 
companies in the area of flexible light-emitting displays, and is 
partnering with industry on federally funded work in the nanotube area.

        <bullet> Has federal support for your research been effective 
        at helping the Institute achieve its goals? How might Congress 
        strengthen the structure, funding levels, and focus of the 
        National Nanotechnology Initiative?

    The successes achieved by UTD's NanoTech Institute research 
programs would not have existed were it not for the support of various 
federal agencies as well as the visionary leadership of statesmen such 
as you. The same is true for virtually all of the major nanotechnology 
efforts in universities that are ongoing in our country today. 
Continuation and strengthening of this support is critical for our 
nation's maintaining and increasing its leadership position. Industrial 
managers, especially in large companies, are often forced to focus on 
next year's product, so that the research commitment to revolutionary 
products is severely weakened. Targeted funding like that of the NIST 
ATP program can help industry take risks that are in the longer-term 
interest of our economy and the companies, and facilitate partnering 
between industry and universities. Programs for small businesses, like 
the SBIR program, are critical, and increases in phase I funding levels 
could provide the industrial focus that enables success.

        <bullet> Is the U.S. education system currently producing an 
        adequate number of people with the skills needed to conduct 
        research in nanotechnology and to work in industry on the 
        commercialization of nanotechnology applications? What is the 
        longer-term outlook for the nanotechnology workforce, and what 
        changes, if any, should be made to the current education system 
        to ensure these workforce needs are met?

    Mr. Chairman, I do not think I am exaggerating to say that many of 
our research universities are among the best in the world. However, the 
number of Americans obtaining Ph.D.s has not grown with our population 
and with the increasing needs of our industry. Indeed, our nation's 
intellectual and economic growth has long been closely linked to our 
ability to absorb the best and the brightest from all corners of the 
globe. Innovations carried out in American university laboratories are 
powered by students, postdocs, and faculty members from across the 
United States and from all regions of the Earth, and many of these 
individuals join American industry to forge the products of the future. 
The NanoTech Institute of UTD is but a microcosm of this trend. For 
example, in the NanoTech Institute's laboratories, you will find nearly 
around the clock, American students, postdocs and faculty members 
working hand-in-hand with their colleagues from Russia, Uzbekistan, 
China, Korea, Philippines, Brazil, India, Germany, Ireland, Spain, 
Australia, and other countries. Mr. Chairman, in the wake of the War on 
Terror, a situation has arisen because of the serious limitation of 
visas issued in countries that are becoming the world's technical 
powers. At the most obvious level, the ability of international 
scientists to attend scientific conferences in the United States has 
become problematic. Often even invited speakers are unable to receive a 
visa in time. Unless this visa problem is corrected, I fear that major 
international conferences will be rarely held in our country, so our 
students, technologists, and industries will lose rapid access to 
information. The world's brain drain of the past has served to enrich 
America, and I fear that present visa crisis is now closing our borders 
to much of the intellectual power around the word. We are in danger of 
no longer being a ``technology'' melting pot. (See Nature 426, 5 (2003) 
). At the same time as we are seriously restricting visas for these 
countries, important American companies are creating major research 
laboratories in China and India. Business is usually done with those 
you know, often through face-to-face interactions, and I further fear 
that the visa problem will eventually decrease our ability to conduct 
commercial interactions with rapidly developing economies around the 
world. Mr. Chairman, the visa issue is beginning to effectively isolate 
American science and technology and decrease our ability to attract the 
brightest and most productive scientists to our shores. Unless, 
solutions are found we could be jeopardizing both our economic progress 
and security built on leadership in nanotechnology and many other 
fields.
    In the final analysis, Mr. Chairman, the chronic shortage of 
scientists and engineers facing our nation requires a long-term and 
sustainable solution by the Federal Government. The best solution is to 
truly excite our students in the K-12 levels in science and 
mathematics, and the only way we can achieve that is to greatly enhance 
the number of skilled teachers at those levels.
    In summary, Mr. Chairman, nanotechnology is a quickly changing 
field. I think everyone would agree with me that not so long ago, North 
Texas was not known for its nanotechnology efforts. Now, we are on the 
national and international radar screen. Your assistance and 
understanding of all the issues surrounding the region's ability to 
maintain a healthy scientific and economic landscape will be critical 
to our future.

                      Biography for Da Hsuan Feng

    Dr. Feng is an expert in mathematical physics, nuclear physics, 
nuclear astrophysics, quantum optics, fundamental issues of quantum 
mechanics, network architecture and computational physics. He has been 
a consultant to the theoretical physics groups of Los Alamos National 
Laboratory, Oak Ridge National Laboratory, Brookhaven National 
Laboratory and United Kingdom's Daresbury Laboratory.
    Dr. Feng is responsible for successfully recruiting and securing 
the funds for the James Von Ehr Distinguished Chair in Science and 
Technology for Dr. Alan MacDiarmid, the 2000 Nobel Laureate in 
Chemistry. He also painstakingly recruited the nanotechnology research 
team of Honeywell Corporation in New Jersey. This team is now the 
backbone of UTD's rapidly growing nanoscience program. In addition, Dr. 
Feng also initiated a SPRING (Strategic Partnership of Research in 
Nanotechnology) project, which linked together, besides UTD, Rice 
University, the University of Texas at Austin, and the University of 
Texas at Arlington. For FY03 and FY04, Dr. Feng worked closely with the 
Congressional delegation of Texas to secure $6 million and $10 million, 
respectively, for SPRING funding. He also founded the Medical Device 
Action Group, a regional effort to promote interdisciplinary research 
in this technological arena. Research funding for UTD has increased 
from $16 million to $28 million during the past three years.
    On December 9, 2000, Dr. Feng assumed the position of Vice 
President for Research and Graduate Education and Professor of Physics 
at the University of Texas at Dallas. Dr. Feng's objective at the 
University of Texas at Dallas, as designated by the President and the 
Provost, is to rapidly build the research breath and depth of the 
University. The goal is to drive the University to be a major 
international research University. To that end, he has articulated 
three concentrations of excellence for UTD in this decade: digital 
communications, advanced materials and instrumentations and last but 
not least, disease centric post genomic research.
    Dr. Feng received his undergraduate education from Drew University 
in New Jersey and doctorate in Theoretical Physics from the University 
of Minnesota. Prior to joining the Physics Department of Drexel 
University in 1976, where he eventually became the M. Russell Wehr 
Chair Professor of Physics, he was a United Kingdom Science Research 
Council fellow at the Department of Theoretical Physics of the 
University of Manchester (1972-74) and a Senior Scientist at the Center 
for Nuclear Studies of the University of Texas at Austin (1974-76). 
During his tenure at Drexel University, he served for two years as 
Program Director of Theoretical Physics at the National Science 
Foundation (1983-85) and visiting Professor of the Niels Bohr Institute 
of the University of Copenhagen (1979-80).
    Dr. Feng has published more than 190 scientific papers, edited more 
than 20 books, and served as editor of four scientific journals. In 
recognition of his contribution to the field of physics, Dr. Feng 
received the accolade ``Fellow of the American Physical Society.'' Each 
year, no more than one-half of one percent of the current membership of 
the Society is recognized by their peers for election to the status of 
Fellow. He also is the Honorary Professor/Senior Research Fellow of six 
universities/academy of sciences in China and the honorary member of 
the Board of Trustees of one of China's top universities, Nanjing 
University.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Burgess. So we probably then should move on to Dr. 
Ron Elsenbaumer, the Vice President for Research at the 
University of Texas at Arlington.

  STATEMENT OF DR. RONALD L. ELSENBAUMER, VICE PRESIDENT FOR 
            RESEARCH, UNIVERSITY OF TEXAS, ARLINGTON

    Dr. Elsenbaumer. Thank you. Mr. Chairman, Congressman Hall, 
it's my pleasure to be here today to offer my testimony on the 
impacts of nanotechnology on economic growth and job creation 
in the future. Nanotechnology will be the driving force for 
developing smaller, lighter, more energy efficient, less costly 
and stronger materials, devices and processes by fostering the 
creation of new functional materials and devices that exhibit 
novel phenomena and properties at the nanometer length scale. 
As this is realized, nanotechnology will be pervasive in our 
future and will be a major factor in U.S. economic growth and 
job creation in the technology sector for decades to come.
    Based on current trends, it appears as though the impact 
will be most dramatic in the electronics industries, medical 
industries and in the energy sector. For example, work ongoing 
at UT-Arlington and our nanofab research and teaching facility 
and our College of Engineering and in our Center for 
Nanostructured materials and our College of Science is directed 
at nanotechnology development for these industries. 
Specifically, in our nanofab facility, we are developing 
nanostructured interfaces for semiconductor device 
interconnects as well as nanoporous materials for use as low 
dielectric separating copper-connected nanoscale transistor 
devices.
    These research projects will help realize the next 
generation of high performance computer chips. Nanocontact 
printing techniques being developed at other academic 
institutions could revolutionize the way semiconductor devices 
are manufactured and drastically reduce manufacturing costs. 
Together, these new technologies will generate inexpensive, 
very powerful computing devices that will be incorporated into 
nearly every aspect of our daily lives, even more so than what 
they are already are, leading to continued changes in our 
quality and way of life.
    In medical applications, we are already seeing that 
nanoscopic materials can readily travel throughout the body. 
Thus, nanomagnetic materials being developed at UT-Arlington 
and our Center for Nanostructured Material might be used in 
conjunction with drug therapies to direct drug delivery to 
targeted areas of the body. Likewise, these materials, as well 
as other nanostructured materials being developed elsewhere, 
could be used for developing very powerful imaging technologies 
for medical diagnoses. And nanotechnology will undoubtedly play 
a major role in the development of renewable, cost effective, 
clean sources of energy, such as hydrogen. Nanotechnology will 
also lead the way to developing more efficient lighting, 
transportation and electromechanical devices, all of which will 
result in significant reductions in fossil fuel consumption.
    But with these opportunities come formidable challenges. 
New materials require new processes for making them, and many 
of these processes have not yet been developed or are not yet 
cost effective for commercialization. The situation is similar 
for device fabrication and assembly. How can we control 
fabrication processes at these incredibly small dimensions. 
Paradigm shifts in manufacturing technologies will have to 
occur and new processes are generally slow to be accepted by 
industry. Similarly, concerns that the general public might 
have with perceived dangers associated with nanotechnology, 
such as environmental, bioethical and yet unrecognized societal 
impacts could slow acceptance of certain nanotechnology or even 
prevent them from being developed.
    Overcoming these challenges and potential limitations will 
take considerable effort, and here it is imperative that the 
Federal Government take the long view and fund longer-term and 
in some cases wider-ranging research projects, as, generally, 
the private sector will not. I believe this concept needs to be 
seriously considered as the Federal Government shapes its 
funding and research policy issues across its various agencies.
    The best approaches I have seen for facilitating the 
transfer of basis research results to industry are two-fold. 
One is through development of industry, university and 
government partnerships early on in the process. Integrating 
basic research approaches with industry development needs at 
the onset, and with continued adjustment throughout the 
process, ensures compatibility between the research outcomes 
and industry's acceptance and willingness to integrate them 
into their products and processes.
    Another is through the creation of small businesses that 
are facilitated through technology incubators, such as the 
Arlington Technology Incubator. The Arlington Technology 
Incubator was created through a partnership between UT-
Arlington and the Arlington Chamber of Commerce to help foster 
new technology and new technology-led development in the 
Arlington-Dallas-Ft. Worth region. It provides a mechanism by 
which faculty can take their research discoveries made at the 
university and develop commercial enterprises to capitalize on 
them. UT-Arlington is engaged in both approaches. Joint 
industry-university research partnerships are ongoing in 
multiple electronic device and materials areas with several 
electronics companies, and several of our faculty members are 
beginning to move technology developed at the university into 
small start-up companies.
    Federal research support plays an important role in both of 
these approaches, and I would encourage funding agencies to be 
more aggressive in supporting these types of activities. 
Specifically relating to the National Nanotechnology 
Initiatives, policies that support and encourage government, 
academia and industry partnerships and fund these activities 
for longer periods of time could be given--should be given more 
consideration. Consider that the average time for a Ph.D. 
student to graduate is now more than five years, yet typical 
research funding periods are for only three years. Likewise, 
levels of financial support for graduate students as well as 
their earning power upon graduation are generally not adequate 
to attract U.S. citizens into pursuing science or engineering 
professions. This is perhaps a particular concern for security-
sensitive industries and professions where the number of 
skilled workers in nanotechnology will clearly not be adequate 
to meet demand. Also, as nanotechnology becomes more integrated 
into industrial practices, the demand for more highly trained 
workers will outpace supply. And, of course, this will occur 
faster as the economy gets stronger, further widening the gap.
    To help meet these future work force needs, several changes 
in our educational process will need to take place. Perhaps a 
high priority one should be directed at strengthening the math 
and science skills of K to 12 students and subsequently 
improving the preparedness of U.S. students entering college. 
Another is glorifying nanoscience and technology to students at 
an early age, and these two activities will go a long way to 
significantly help increase the pipeline of students seeking 
and ultimately being trained for professions in research and 
development in nanotechnology. Thank you.
    [Applause.]
    [The prepared statement of Dr. Elsenbaumer follows:]

              Prepared Statement of Ronald L. Elsenbaumer

    Nanotechnology will be the driving force for developing smaller, 
lighter, more energy efficient, less costly, and stronger materials, 
devices and processes by fostering the creation of new functional 
materials and devices that exhibit novel phenomena and properties at 
the nanometer length scale. As this is realized, ``nanotechnology'' 
will be pervasive in our future and will be a major factor in U.S. 
economic growth and job creation in the technology sector for decades 
to come. Based on current trends, it appears as though the impact will 
be most dramatic in the electronics industries, medical industries, and 
in the energy sector. For example, work ongoing at UT-Arlington on 
developing nanostructured interfaces for semiconductor device 
interconnects and nanostructured porous materials as low dielectrics 
separating copper connected nanoscale transistor devices are helping to 
realize the next generation of high performance computer chips. Nano-
contact printing techniques being developed at other institutions could 
revolutionize the way semiconductor devices are manufactured and 
drastically reduce manufacturing costs. Together, these new 
technologies will generate inexpensive, very powerful computing devices 
that would be incorporated into nearly every aspect of our daily 
lives--even more so than what they already are--leading to continued 
changes in our quality and way of life.
    In medical applications, we are already seeing that nanoscopic 
materials can readily travel throughout the body. Thus, nanomagnetic 
materials being developed at UT-Arlington could be used in conjunction 
with drug therapies to direct drug delivery to targeted areas of the 
body. Likewise, these materials, as well as others being developed 
elsewhere, could be used for developing very powerful imagining 
techniques for medial diagnoses.
    And, nanotechnology will undoubtedly play a major role in the 
development of renewable, cost effective, clean sources of energy, such 
as hydrogen. Nanotechnology will also lead the way to developing more 
efficient lighting, transportation, and electromechanical devices; all 
of which will result in significant reductions in fossil fuel 
consumption.
    But, with these great opportunities come formidable challenges. New 
materials require new processes for making them--and many of these 
processes have not been developed yet, or are not yet cost effective 
for commercialization. The situation is similar for device fabrication 
and assembly. How can we control fabrication processes at these 
incredibly small dimensions? Paradigm shifts in manufacturing 
technologies will have to occur, and new processes are generally slow 
to be accepted by industry.
    Similarly, concerns that the general public might have with 
perceived dangers associated with nanotechnology, such as 
environmental, bio-ethical, and unrecognized societal impacts, could 
slow acceptance of certain nanotechnologies or prevent them from being 
developed.
    Overcoming these challenges and potential limitations will take 
considerable effort. And here, it is imperative that the Federal 
Government take the long view and fund longer-term, and in some cases 
wider ranging research projects, as generally, the private sector will 
not. I believe this concept needs to be seriously considered as the 
Federal Government shapes its funding and research policy issues across 
its various agencies.
    The best approaches I have seen for facilitating the transfer of 
basic research results to industry are two-fold. One is through 
development of industry, university, and government partnerships early 
on in the process. Integrating basic research approaches with industry 
development needs at the outset, and with continued adjustment 
throughout the process, ensures compatibility between the research 
outcomes and industry's acceptance and willingness to integrate them 
into their products and processes. Another is through the creation of 
new small businesses that are facilitated through technology 
incubators, such as the Arlington Technology Incubator. The Arlington 
Technology Incubator was created through a partnership between UT-
Arlington and the Arlington Chamber of Commerce to help foster new 
technology led economic development in the Arlington, Dallas-Fort Worth 
region. It provides a mechanism by which faculty can take their 
research discoveries made at the University and develop commercial 
enterprises to capitalize on them. UT-Arlington is engaged in both 
approaches. Joint industry/university research partnerships are ongoing 
in multiple electronic device and materials areas with several 
electronics companies. And, several of our faculty members are 
beginning to move technology developed at the university into small 
start-up companies. Federal research support plays an important role in 
both of these approaches. And, I would encourage funding agencies to be 
more aggressive in supporting these activities. Specifically, relating 
to the National Nanotechnology Initiative, policies that support and 
encourage government, academia, and industry partnerships, and fund 
these activities for longer periods of time should be given more 
consideration. Consider that the average time for Ph.D. students to 
graduate is more than five years, yet typical research funding periods 
are for only three years. Likewise, levels of financial support for 
graduate students, as well as their earning power upon graduation, are 
generally not adequate to attract U.S. citizens into pursuing science 
or engineering professions. This is perhaps of particular concern for 
security sensitive industries and professions, where the number of 
skilled workers in nanotechnology will clearly not be adequate to meet 
demands. Also, as nanotechnology becomes more integrated into 
industrial practices, the demand for more highly trained workers will 
out-pace supply. Of course, this will occur faster as the economy gets 
stronger, further widening the gap. To help meet these future workforce 
needs, several changes in our educational process will need to take 
place. Perhaps a high priority one should be directed at strengthening 
the math and science skills of K-12 students, and subsequently 
improving the preparedness of U.S. students entering college. Another 
is glorifying nanoscience and technology to students at an early age. 
These two activities will go a long way to significantly help increase 
the pipeline of students seeking and ultimately being trained for 
professions in research and development in nanotechnology.

                  Biography for Ronald L. Elsenbaumer

Education:

B.S. With Honors in Chemistry, Purdue University, 1973

Ph.D. Chemistry, Stanford University, 1978

Employment:

The University of Texas at Arlington, 1991 to present

        Interim Vice President for Research, November 2003-

        Associate Vice President for Research, 2003-

        Director, Nano-Fabrication Research and Teaching Facility, 
        2003

        Interim Director, Nano-Fabrication Research and Teaching 
        Facility, 2002-2003

        Chair, Department of Chemistry and Biochemistry, January 1996-
        2003

        Chair/Director, Materials Science and Engineering Program, 
        1991-2003

        Professor of Chemistry and Polymer Chemistry, 1991-present

AlliedSignal, Inc. (Allied Chemical) Dec. 1977 to Oct. 1991
Corporate Research, Morristown, NJ 07962

        Senior Research Associate, 1989-1991

        Research Associate and Group Leader, 1982-1989

        Senior Research Chemist, 1980-1982

        Research Chemist III, 1977-1980

Publications:

Authored or co-authored 85 publications

Awarded 30 U.S. Patents

Research Thrust Areas:

Electrically Conductive Polymers

Flame Retardants for Polymers

Enhanced Lubricant Technologies

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Burgess. Thank you.
    Next we'll go to Mr. Chris Gintz, NanoHoldings, LLC.

 STATEMENT OF MR. CHRISTOPHER J. GINTZ, CEO, NANOHOLDINGS, LLC

    Mr. Gintz. Congressman Burgess, Congressman Hall, ladies 
and gentlemen, I'm happy to report to you on behalf of all the 
little companies out there that innovation in nanotechnology is 
alive and well here in Texas. Approximately 80 percent of our 
time is spent with researchers, both here in north and south 
Texas, at University of North Texas, at the University of Texas 
at Dallas and also at Rice University in Houston.
    We're an investment company that builds early-stage 
nanotechnology companies around exclusive licenses from leading 
universities for their most promising nanotechnology 
discoveries. We focus exclusively on core technologies that can 
have a major impact on existing multibillion dollar markets. In 
doing so, we anticipate being able to catalyze significant 
research and development into breakthrough products and 
processes that can improve our national industrial competitive 
position and also enhance the effectiveness of our military.
    We started over 18 months ago by extending our reach to 
research universities that have reported promising developments 
in the fields of electronics, energy and advanced materials and 
process fields at the nanoscale. An example of our research and 
our reach is found here today. We believe, for example, that 
Dr. Timothy Imholt, a graduate student here at the University 
of North Texas, has made an important discovery, and we have 
been working with him to enhance his discoveries. We provided 
direct financial support for his research and we've formed a 
company called NanoStar to commercialize a portion of his 
discovery, and we're in the process of concluding an exclusive 
license with the University of North Texas, and we've been 
invited by them to locate NanoStar as one of the first 
commercial companies in the incubator. I believe it's in this 
facility.
    Our scope is long-term. While we want to solve very big and 
complex national problems, we're extremely disciplined in our 
business approach. We target very specific short-term 
milestones that validate the science, we seek out only the best 
management teams to add to each nanodevelopment company that we 
form, we're relentless in our drive to ensure that our 
development company delivers its first commercial products 
within three years from its entry into the incubator.
    I believe a drive to commercialization is critical to be 
able to successfully leverage the major government investment 
in this exceptional field of science. When I was the Director 
of Technology Planning and Development at Compaq Computer I 
focused on the creation of technological solutions leading to 
the formation of major industrial partnerships with a variety 
of companies. At their zenith they had annual sales of over $50 
billion a year. Some of these investments were with Conner 
Peripherals, with Nexgen Microsystems, with In Focus Systems, 
Sanyo Electric Battery and Citizen Watch. As the inventor of 
the first notebook computer concept, which became the Compaq LT 
Notebook family, this product had a first year sales success of 
$1.5 billion. So when I say I'm focused on commercialization, I 
say so with a history of having done so successfully with a 
burning desire to do so again. I also know how critical it is 
to be able to allocate private capital sensibly to each 
promising innovation, and I'm lucky to have an experienced 
venture capitalist, Justin Hall-Tipping, as my partner.
    The potential economic impact of the commercialization of 
nanotech discoveries, like Dr. Imholt's, is fueling a global 
foot race between developed nations whose governments clearly 
understand that leadership in this field may be critical to 
their future economies. The National Science Foundation 
predicts that in the United States alone nanotechnology 
innovation may have a trillion dollar impact within the next 15 
years, but that will only occur if we have a good working 
relationship between private capital sources and government.
    Clearly, the recent approval of the nanotechnology bill is 
evidence of the United States government's commitment to the 
science. We are delighted that much of the funding is targeted 
at academia. We have seen firsthand because of our 
relationships with two very good research universities here in 
North Texas that they're ideally structured to acquire the 
grant funding process and to foster the out-of-the-box thinking 
and global collaboration that will be vital for breakthroughs 
in this field. This was a major determinant in NanoHoldings' 
decision to invest early in partnerships with universities here 
in Texas and their scientists to develop the core technologies 
that we feel will form the bedrock of new industries to come.
    We hope that the promise of these scientific developments 
will also facilitate the local economy by providing many good 
paying skilled jobs. But it most certainly cannot occur without 
a sizable investment in the science and research nor in the 
development of the local infrastructure. Only by working with 
the university can we expect to mobilize our efforts along with 
the public sector. All of the ingredients for success are here. 
Progressive, forward-thinking university administrators work 
hand in hand with local development officials and are creating 
the environment for a small company like ours to succeed. Close 
cooperation between the government at all levels of the private 
sector is a fundamental requirement to create the scale of 
investment that is a basic requirement for successful 
entrepreneurial activity at the nanoscale. Our competition is 
international and intense.
    Thank you for giving us the opportunity to have a voice 
today. We look forward to working with you as a partner, and we 
hope to ensure that we can bring these innovations to the 
market. Good morning.
    [Applause.]
    [The prepared statement of Mr. Gintz follows:]

               Prepared Statement of Christopher J. Gintz

    Good Morning Ladies and Gentlemen. I am Christopher J. Gintz, 
Managing Partner of NanoHoldings, LLC.
    NanoHoldings is an investment company that builds early stage 
nanotechnology companies around exclusive licenses from leading 
universities for their most promising nanotechnology discoveries. We 
focus exclusively on core technologies that can have a major impact on 
existing multi-billion dollar markets. In doing so, we anticipate being 
able to catalyze significant research and development into breakthrough 
products and processes that could improve our national industrial 
competitive position and also enhance the effectiveness of our 
military.
    We started over eighteen months ago by extending our reach to 
research universities that had reported promising developments in 
electronics, energy, and advanced materials and process fields at the 
nanoscale. An example of our reach is found here today. We believe that 
Mr. Timothy Imholt made an important discovery last year at the 
University of North Texas. We have provided direct financial support 
for his research and have formed a Company, NanoStar, to commercialize 
a portion of his discovery. We are in the process of concluding our 
exclusive licensing agreement with the University and have been invited 
by them to locate NanoStar as the first commercial company in their new 
incubator.
    Our scope is long-term. While we want to solve very big and complex 
national problems, we are extremely disciplined in our business 
approach. We target very specific short-term milestones that validate 
the science. We seek out only the best management teams to add to each 
nano-development company we form. We are relentless in our drive to 
ensure each development company delivers its first commercial products 
within three years from its entry into the incubator.
    I believe a drive to commercialization is critical to be able to 
successfully leverage major government investment in this exceptional 
field of science. When I was the Director of Technology, Planning and 
Development for Compaq Computer, I focused on the creation of 
technological solutions leading to the formation of major industrial 
partnerships with Conner Peripherals, Nexgen Microsystems, In Focus 
Systems, Sanyo Electric Battery, and Citizen Watch. I was also the 
inventor of the first notebook computer concept, (U.S. Design Patent 
#317,442), which became the Compaq LTE Notebook Compute family. That 
product had first year sales in excess of $1.5 billion. So when I say I 
am focused on commercialization, I say so with a history of having done 
so successfully, and a burning desire to do so again. I also know how 
critical it is to be able to allocate capital sensibly to each 
promising innovation, and I am lucky to have an experienced venture 
capitalist, Justin Hall-Tipping, as my partner.
    The potential economic impact of the commercialization of nanotech 
discoveries like Timothy Imholt's is fueling a global ``foot race'' 
between developed nations whose governments clearly understand that 
leadership in this field may be critical to their future economies. The 
National Science Foundation predicts that in the United States alone, 
nanotechnology innovation may have a $1 trillion impact within the next 
15 years. Clearly, the recent approval of the Nanotechnology bill is 
evidence of the United States' commitment to this science.
    We are delighted that much of this funding is targeted at academia. 
We have seen first hand that university centers like the University of 
North Texas are ideally structured to acquire the grant funding and 
foster the out-of-the-box thinking and global collaboration that will 
be vital for breakthroughs in this field. This was a major determinant 
in NanoHoldings' decision to invest early in partnership with 
universities and their scientists to develop the core technologies that 
will form the bedrock of new industries to come.
    We hope that the promise of these scientific developments will also 
facilitate the local economy by providing many good paying skilled 
jobs. But it most certainly cannot occur without a sizable investment 
in the science and research nor in the development of the local 
infrastructure.
    Only by working with the University can we expect to mobilize our 
efforts along with the public sector. All of the ingredients for 
success are here. Progressive, forward-thinking university 
administrators working hand-in-hand with local development officials 
are creating the environment for us to succeed. Close cooperation 
between the government at all levels and the private sector is a 
fundamental requirement to create the scale of investment that is a 
basic requirement for successful entrepreneurial activity at the 
nanoscale. Our competition is international and intense.
    Thank you for giving NanoHoldings the opportunity to have a voice 
today. We look forward to working with you as a partner to create some 
of the breakthrough innovations that will ensure that America maintains 
a strong leadership position in this emerging global economy. Good 
Morning.

                   Biography for Christopher J. Gintz

DEMOGRAPHICS:

    Married, two children aged 8 and 11

SUMMARY:

    Christopher J. Gintz, 50, is a well-known designer, marketer and 
executive in the computer industry. He led the product and technology 
teams in start-ups and established companies. His experience spans the 
semiconductor, software and hardware businesses. As a life-long 
inventor and entrepreneur, he defined technologies into end-user 
products that are market based. As an early employee at Compaq 
Computer, he focused on the creation of technology partnerships and the 
formation of joint ventures with Conner Peripherals, Nexgen 
Microsystems, In Focus Systems, and Citizen Watch. He is the inventor 
of the Compaq LTE notebook computer concept and holds U.S. and foreign 
patents on the design, U.S. Patent #317,442. Since 1995, he is a force 
behind the incorporation of software technology into school curriculums 
across the United States.

EXPERIENCE:

September 1995-Present: Optimum Resource, Inc., Hilton Head Island, 
South Carolina
Chief Operating Officer, Director

    Responsible for the day-to-day management of a leading educational 
software publisher's operations including product definition, sales and 
marketing, engineering, finance, fulfillment, personnel, and legal 
functions. The company, under his guidance, created over 60 products 
and broadened its brands to include a comprehensive set of curriculum-
based pre-K-grade 12 solutions that are cross-platform compatible. 
Company is profitable the past four years despite a rapid consolidation 
in the industry.

January 1995-September 1995: Summary Corporation, Houston, Texas
Chief Operating Officer, Director

    Responsible for arranging the first round of public financing and 
redirecting product development efforts.

August 1992-December 1994: The Bardehle Law Firm, Houston, Texas
Technology and Licensing Consultant to International Companies

    Managed the firm's worldwide electronic technology licensing 
practice. Produced major engineering analyses in the disciplines of 
cellular telephone, semiconductor manufacturing and computer hardware 
and software technology in preparation for complex licensing and patent 
litigation. Developed strategies for technology licensing clients in 
the United States, Japan, and Europe. Cross-trained in the copyright 
and trademark practices in the global electronics industry.

August 1991-August 1992: Compaq Computer Corporation, Houston, Texas
Director, Corporate Development; reported to the new President and 
        Chairman of the Board

    Appointed by the new President in management reorganization to 
identify, form, and manage cross-functional teams to restructure the 
Company's business processes. Developed a plan, in conjunction with a 
20-person McKinsey consulting team, to develop a strategy to broaden 
the company's distribution and product line accelerating the company's 
growth from 5.5 billion to 10 billion dollars. Reduced payroll by $25 
million dollars, operating expenses by $200 million annually and 
product development and manufacturing costs by 30 percent.

August 1985-August 1991: Compaq Computer Corporation, Houston, Texas
Director, Technology, Planning and Development; reported to the 
        Founders of the Company

    Managed the worldwide technology diligence process for all semi-
conductor, computer hardware and software technologies fitting into the 
company's product planning and business processes. Completed over $50 
million in early stage investments in relevant technologies. Company 
earned over a billion dollars on these investments either by selling 
shares when the companies went public or when technologies were 
leveraged into products that enabled the company to command higher 
gross profit margins for its products.
    Developed the notebook computer product concept and put together a 
joint venture with Citizen Watch Company, Japan to manufacture a family 
of products. Over 2,000,000 LTE Family computers sold over a seven-year 
period, generating annual revenue in excess of $1.5 billion dollars.
    Managed the standards making process as the company's designated 
CBEMA, ECMA, ANSI and CSPP technology policy-making representative 
worldwide.

July 1984-August 1985: CTI Data Corporation, Raleigh, North Carolina
Director, Marketing and Product Planning; reported to the lead investor 
        and Board

    Initial start-up team member recruited by the investors to develop 
a marketing and product strategy for a development stage venture 
capital start-up designing remote switches for data networks. 
Engineering team could not cost effectively engineer the product and 
the company sold for its net loss carry-forward.

April, 1983-July 1984: Compaq Computer Corporation, Houston, Texas
Manager, Product Planning; reported to Company Founder

    Planned all of the initial portable computer products and developed 
business plan for the entry into the desktop computer business. 
Products generated over $1.5 billion in sales during a three-year 
period.

November 1980-April 1983: Texas Instruments, Inc., Houston, Texas
Manager, Data Communications and Storage Products Semi-conductor 
        Business

    Developed business plans and managed a group that was responsible 
for implementing products utilizing the token ring chip set and hard 
disk interfacing chips in digital device applications.

August 1979-November 1980: Bunker Ramo Information Systems, Trumbull, 
Connecticut
Software Project Engineer

    Developed software for complex international funds transfer systems 
in Iran, the Philippines, and Europe.

May 1978-August 1979: Incoterm Corporation, Boston, and Massachusetts
Software Engineer and Technical Writer

    Developed computer programs and software documentation for the 
first airlines reservation system for United, Delta, TWA, Eastern, and 
Braniff Airlines.

May 1974-July 1978: State of South Carolina, Columbia, South Carolina

    Designed computer information systems for manpower, planning, 
administration, and scientific computer applications in a large IBM 
mainframe environment.

EDUCATION:

Graduate, Cathedral Preparatory School for Boys, Erie, Pennsylvania, 
        1969

Bachelor of Arts, English, University of South Carolina, Columbia, 1972

Bachelor of Science, Computer Science, University of South Carolina, 
        Columbia, 1979

Master of Education, Research and Statistics, University of South 
        Carolina, Columbia, 1974

PATENTS:

    Design Patent Number 317,442, June 11, 1991; Notebook Computer 
assigned to Compaq Computer Corporation, Houston, Texas

REFERENCES:

    Available on Request.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Burgess. Thank you.
    And then Dr. John Randall, Chief Technology Officer and 
Vice President of Research at the Zyvex Corporation.

 STATEMENT OF DR. JOHN RANDALL, CHIEF TECHNOLOGY OFFICER, VICE 
            PRESIDENT OF RESEARCH, ZYVEX CORPORATION

    Dr. Randall. Thank you, Mr. Chairman. I am John Randall, 
Chief Technology Officer of Zyvex Corporation. Unfortunately, 
Zyvex's Chairman, CEO and my friend, Jim Von Ehr, was unable to 
be here this morning, so he has given me the honor of reading 
his testimony before this Committee.
    Many of us here today believe that the future impact of 
nanotechnology on our lives will be profound. We owe a great 
deal of thanks to people such as Jim Von Ehr who have donated 
$4 million to universities, another $200,000 to fund the Texas 
Nanotechnology Initiative, and to date has expended $34 million 
of his own personal money to nanotechnology, more than any 
other single person on Earth. He's not only a great 
businessman, he's a great American, and as a member of Zyvex, 
one of the first nanotechnology businesses, I'm proud to share 
his thoughts with you today. So this is the testimony of James 
Von Ehr, Chairman and CEO of Zyvex Corporation.
    First of all, I would like to thank President Bush, 
Chairman Sherwood Boehlert, Representative Mike Honda, Senator 
George Allen, Senator Ron Wyden, all of the Members of the 
Science Committee who have taken the time to confront the 
challenges of ensuring our nation's future well being. We would 
not be gathered here today if it had not been for their 
efforts.
    It was just three days ago that I stood behind the 
President in the Oval Office as he signed the 21st Century 
Nanotechnology Research and Development Act. It was both a 
humbling and an expiring moment. We have taken the first steps 
to bring the promise of nanotechnology to the American people, 
but the Members of the Science Committee know that although 
we've made great strides in passing this bill, much work still 
needs to be done to ensure that it is the United States who 
continues to be the world leader in science, technology and 
business. We need to commercialize university research, create 
more opportunities and competition for small businesses to 
perform innovative nanotechnology R&D and issue grand 
challenges that the American public can understand and embrace. 
This needs to happen if we're going to bring the vision of 
nanotechnology to fruition.
    Thanks to my previous business success, I've been able to 
fund Zyvex to become one of the leading nanotechnology 
companies in the world. I've also given money to a number of 
universities to help them enter this field. With this 
experience I feel entitled to comment on technology transfer 
and commercialization. International competitors are 
aggressively developing their own nanotechnology industries, 
often based on discoveries first made in university labs here 
in the United States. When universities protect their 
intellectual property it ultimately benefits the Nation but 
only if there's a successful technology transfer to a U.S. 
company that is able to develop it into applications and 
services. Yet we know the technology transfer programs at our 
nation's leading universities have produced dismal results.
    The barriers for small and large industry to commercialize 
this long-term research under federal dollars have brought very 
little economic benefit to the American public. Right now there 
are breakthrough technologies sitting on the shelves in 
academia. In the hands of the right businesses, these 
technologies could be develop cures for diseases, conserve 
energy or streamline manufacturing with the additional benefits 
of creating thousands of jobs for Americans.
    Stockholders' gauge a business performance to decide if 
it's a worthy investment. A similar measurement component needs 
to be in place when awarding universities federal R&D dollars. 
The award decision should be based on the university's track 
record as well as their plan for successfully transferring 
their technology to American businesses. The measurement system 
would encourage universities to be more discerning about which 
intellectual property they decide to protect and more flexible 
about licensing terms.
    I used to be opposed to government funding for any 
industry. I have always believed, and still do, that the 
private sector makes the best investment decisions. Yet some 
important investments are too long-term or risky for private 
capital. It is reasonable for government to encourage economic 
competitiveness for national security reasons. As a 
businessman, I am concerned about the industrial policy 
implications. As an American citizen, I'm even more concerned 
about losing nanotechnology to foreign countries with investors 
willing to invest beyond two to three years. On a trip to 
Taiwan last year, I witnesses ITRI, a government-industry 
partnership, staffed with 6,000 researchers, developing an 
advanced technology base and focusing on industrial 
competitiveness. Other countries such as Singapore, Japan and 
China are setting up similar programs. They understand that 
creating programs that leverage government, university and 
business partnerships will position them to be leaders in a new 
global economy. Private funding today is short-term oriented, 
but taking research from the lab to the marketplace is a long-
term endeavor. The gap between lab and market leads to a valley 
of death funding crisis, and it is rare to find investors 
willing to take the risk of investment lasting more than five 
years.
    It is estimated that 95 percent of the $3.7 billion 
authorized for this act will go to scientific research and 
development, about 60 percent to academia and 35 percent to 
government labs. Additionally, it will be used to fund big 
government and university programs. We should inject private 
sector competition and businesses into our nanotechnology 
program. The result would be smaller programs that through the 
nature of competition will achieve better results.
    We need an R&D technology program that engages small 
businesses. The Commerce Department has the NIST Advance 
Technology Program, which has been instrumental to Zyvex in 
overcoming this funding gap. It helps fund high-risk, high-
reward projects and evaluating commercialization plans as a 
venture capitalist would. The NIST ATP Program requires in many 
cases, including ours, cost-sharing by the company. The ATP 
helps put small companies on a more even research and 
development footing with large companies. The program wisely 
recognizes that small businesses are unable to afford the kind 
of R&D of an IBM or a Lucent yet are responsible for the 
majority of our nation's innovations and technical 
achievements. Thanks to our ATP we have hired 15 new employees 
in 2003, and we support researchers at Universities in Texas, 
Virginia and New York. We are developing new manufacturing 
technology that will drive innovation in the silicon 
micromachine domain. The impact of parallel microassembly on 
the broader economy will be in the billions of dollars and 
ultimately create thousands of jobs here in America.
    In order for the United States to be competitive in the 
future global market, our U.S. industries are going to need the 
best and the brightest engineers, scientists and business 
people. However, the increased immigration restrictions are 
making it more and more difficult for American universities to 
attract foreign students. Many countries such as Korea and 
China have upgraded their university facilities to keep their 
best students at home, and student applications here are 
declining as a result. We need to welcome students to our 
American universities and yet find ways to balance our security 
concerns.
    In order to encourage more Americans to study science and 
engineering, we need to inspire and motivate them. A Grand 
Challenge would do that. We need government, universities and 
industry to work in a partnership to achieve the great promises 
of nanotechnology through a program similar to the Man on the 
Moon Challenge. The National Nanotechnology Initiative has 
worked very hard to find nine grand challenges, yet many 
Americans have a difficult time embracing these. What if we had 
one or two grand challenges that solved serious problems of our 
nation, problems like reducing our dependence on imported 
energy and regaining our position as the world leader in 
manufacturing? Every American would embrace and stand behind 
these challenges.
    In conclusion, we have a great responsibility to the 
American people to ensure that nanotechnology provides the 
benefits that we claim. We must create ways to make technology 
transfer successful. We must create ways for small businesses 
to compete with one another to sell the best innovations and 
applications in the global marketplace. We must help our 
universities thrive. And, most importantly, we must come 
together as a nation to solve some of our toughest problems, 
energy independence and manufacturing. Once again, I commend 
President Bush, Senator George Allen, Senator Ron Wyden, 
Representative Mike Honda, the House Science Committee Chairman 
Sherwood Boehlert, the Congressmen at this hearing and our 
other leaders who have created the legacy through the passage 
of this bill. Mr. Chairman and Members of the Committee, thank 
you for your time and for this great honor.
    [Applause.]
    Mr. James Von Ehr II was unable to attend the hearing and 
was represented by Dr. John Randall. Mr. Von Ehr did submit 
written testimony.
    [The prepared statement of Mr. Von Ehr follows:]

               Prepared Statement of James R. Von Ehr II
                  Chairman and CEO, Zyvex Corporation

INTRODUCTION

    First, I would like to thank President Bush, Chairman Sherwood 
Boehlert, Representative Mike Honda, Senator George Allen, Senator Ron 
Wyden and all the Members of the Science Committee who have taken the 
time to confront the challenges of ensuring our nation's future well 
being. We would not be gathered here today, if it had not been for 
their efforts.
    It was just three days ago that I stood behind the President in the 
Oval Office as he signed the 21st Century Nanotechnology Research and 
Development Act. It was a humbling and yet inspiring moment.
    We have taken the first steps to bring the promise of 
nanotechnology to the American people. Our nation has accomplished so 
much. But Members of the Science Committee know that although we have 
made great strides by the passage of this bill, much work still needs 
to be done. We now have to build and strengthen the infrastructure to 
ensure that it will be the United States who continues to be the world 
leader in science, technology, and business.
    We need to commercialize university research, create more 
opportunities and competition for small businesses to perform 
innovative nanotechnology R&D, and issue Grand Challenges that the 
American public can understand and embrace. This needs to happen if we 
are to bring the vision of nanotechnology to fruition.

TECHNOLOGY TRANSFER

    Thanks to my previous, significant business success, I've been able 
to generously fund Zyvex to become one of the leading nanotechnology 
companies in the world. I've also given money to a number of 
universities to help them enter this field. With this experience, I 
feel entitled to comment on technology transfer and commercialization.
    International competitors are aggressively developing their own 
nanotechnology industry, quite often based on discoveries first made in 
our own university labs here in the United States. When Universities 
protect their intellectual property, it ultimately benefits the Nation. 
But only if there is a successful technology transfer to a U.S. company 
that is able to develop it into applications and services.
    Yet we all know the technology transfer programs at our nation's 
leading universities have produced dismal results. The barriers for 
small and large industry to commercialize this ``long-term'' research 
performed under federal dollars have brought very little economic 
benefit to the American public. Right now, there are breakthrough 
technologies sitting on the shelves of academia. In the hands of the 
right business, these technologies could be used to develop cures for 
rare diseases, conserve energy, or streamline manufacturing--with the 
additional benefit of creating thousands of jobs for Americans.
    Stockholders gauge a business's performance to decide if it is 
worthy of an investment. A similar measurement component needs to be in 
place when awarding universities federal R&D dollars. The award 
decision should be based on the universities' track record, as well as 
their plan for successfully transferring their technology to American 
businesses. This measurement system would encourage universities to be 
more discerning about which intellectual property they decide to 
protect and more flexible about licensing terms. We are spending a lot 
of money filing patents that are not being used, and we should ask for 
a return on that patent investment.

COMPETITION

    I used to oppose government funding for any industry. I have always 
believed, and still do, that the private sector makes the best 
investment decisions. Yet, some important investments are too long-
term, or risky, for private capital. It is reasonable for the 
government to encourage economic competitiveness for national security 
reasons.
    As a businessman, I am concerned about the ``industrial policy'' 
implications. As an American citizen, I am even more concerned about 
losing nanotechnology to foreign countries with investors willing to 
invest beyond two to three years. On a trip to Taiwan last year, I 
witnessed ITRI, a government/industry partnership staffed with 6,000 
researchers developing an advanced technology base and focused on 
industrial competitiveness. Other countries, such as Singapore, Japan, 
and China, are setting up similar programs. They understand that 
creating programs that leverage government, university, and business 
partnerships will position them to be the leaders in the new global 
economy.
    Private equity funding today is short-term oriented. But taking 
research from the lab into the marketplace is a long-term endeavor. The 
gap between lab and market leads to the ``valley of death'' funding 
crisis--and it is rare to find investors willing to take the risk of an 
investment lasting five years or more.
    It is estimated that 95 percent of the $3.7 billion authorized from 
this Act will go to scientific research and development--about 60 
percent for academia and 35 percent for government labs. Additionally, 
it will be used to fund ``big'' government and university programs. We 
should inject private sector competition and businesses into our R&D 
nanotechnology program. The result will be ``smaller'' programs that 
through the nature of competition achieve better results.
    We need a nanotechnology R&D program that engages small businesses. 
Our small businesses employ 39 percent of high tech workers and are 
responsible for 45 percent of the jobs in our nation. Small businesses 
produce 13-14 times more patents per employee than large firms. These 
patents are also twice as likely to be among the one percent most 
cited.
    Of course, we have SBIR programs aimed at small businesses, but the 
amount of paperwork involved for the relatively small amount of money, 
$100K maximum, makes this program marginal in today's fast-paced 
environment.
    The Commerce Department has the NIST Advanced Technology Program, 
which has been instrumental to Zyvex in overcoming this funding gap. It 
helps fund high-risk, high-reward projects, evaluating 
commercialization plans as a venture capitalist would. The NIST-ATP 
program requires, in many cases, including ours, cost sharing by the 
company. The ATP helps put small companies on a more even research and 
development footing with large companies. The program wisely recognizes 
that small businesses are unable to afford the kind of R&D of an IBM or 
Lucent, yet are responsible for a majority of our nation's innovations 
and technical advancements.
    Thanks to our ATP, we will have hired fifteen new employees in 
2003; we also support researchers at universities in Texas, Virginia, 
and New York. We are developing a new manufacturing technology that 
will drive innovation in the silicon micro-machine domain. The impact 
of parallel micro-assembly on the broader economy will be in the 
billions of dollars and will ultimately create thousands of jobs here 
in America.

EDUCATION AND OUR FUTURE WORK FORCE

    In order for the U.S. to be competitive in this future global 
market, our U.S. industries are going to need the best and brightest, 
engineers, scientists, and business people.
    However, increased immigration restrictions are making it more and 
more difficult for American universities to attract foreign students. 
Many countries such as Korea and China have upgraded their university 
facilities to keep their best students at home, and we're starting to 
see declines in student applications as a result. We need to welcome 
students into our American universities and find ways to balance 
security concerns.
    We have an international workforce at Zyvex. While we try to hire 
American citizens whenever possible, with the decline in American 
science and technology students, sometimes we have to look offshore. We 
should find a way to continue to import highly skilled employees to the 
USA, rather than export the job to another country, or even worse, 
export the company.

GRAND CHALLENGE

    In order to encourage more Americans to study science and 
engineering, we need to inspire and motivate them. A Grand Challenge 
would do that. We need government, universities, and industry to work 
in partnership to achieve the great promises of nanotechnology through 
a Grand Challenge program similar to the ``man on the moon'' challenge. 
The National Nanotechnology Initiative has worked very hard to define 
nine ``grand challenges,'' but it is difficult to focus on nine things 
with undefined outcomes. Many Americans have a difficult time embracing 
these challenges. What if we had one or two Grand Challenges that 
solved serious problems for our nation? Problems like reducing our 
dependence on imported energy and regaining our position as the world 
leader in manufacturing.
    Every American would embrace and stand behind these challenges.

CONCLUSION

    We have a great responsibility to the American people to assure 
that nanotechnology provides the benefits we claim it will. We must 
create ways to make technology transfer successful. We must create ways 
for small businesses to compete with one another to sell the best 
innovations and applications in a global marketplace. We must help our 
universities thrive. And, most importantly, we must come together as a 
nation to solve some of our toughest problems--energy independence and 
manufacturing.
    Once again, I commend President Bush, Senator George Allen, Senator 
Ron Wyden, U.S. House Representative Mike Honda, House Science 
Committee Chairman Sherwood Boehlert, the Congressmen at this hearing, 
and our other leaders who have created a legacy through the passage of 
this bill.
    Mr. Chairman and Members of this committee--thank you for your time 
and for this honor.

                       Biography for John Randall
    Chief Technology Officer, Zyvex Corporation

    Dr. Randall has over twenty years of experience in micro- and 
nanofabrication. He joined Zyvex in March of 2001 after fifteen years 
at Texas Instruments where he worked in high resolution processing for 
integrated circuits, MEMS, and quantum effect devices. Prior to working 
at TI, Dr. Randall worked at MIT's Lincoln Laboratory on ion beam and 
x-ray lithography. Dr. Randall has a Ph.D., M.S., and B.S. in 
Electrical Engineering, all from the University of Houston.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Burgess. The format for the questioning will be 
Mr. Hall and I will alternate. I'll begin and we'll try to 
restrict our question and answer periods to five minutes each 
so we get to more material. The fist question actually goes to 
the entire panel. The information technology [IT] revolution 
that led to unprecedented productivity gains has been the real 
driving force behind the economy in the last 15 to 20 years, 
helping in some ways to offset the gradual decline in some 
areas of the manufacturing sector. Many believe the impact of 
future nanotechnology advancements on productivity and the 
economy will dwarf that of the information technology 
revolution by comparison, so I would ask the panel what is your 
opinion of this, and is the State of Texas or the North Texas 
particularly, are we adequately poised to become a leader in 
this area? And we'll start with Dr. Reidy and move down.
    Dr. Reidy. Congressman, I think that the issue can be 
broken into two ways. First of all, the information technology 
revolution spawned many businesses which were effectively trial 
and error. They were not building anything, and one of the 
great complaints in many cases was that people were using the 
Internet as a means of kind of testing the facility out, see 
what they can do with it. There was a great deal of money made 
and lost, as some of us are aware with our 401Ks, during this 
revolution. I think that the difference between the IT 
revolution and the nanotechnology revolution basically goes 
down to I believe what former Secretary Reich once said is pie-
building rather than pie-dividing. The fact is that we will 
increase manufacturing and manufacturing probably will maintain 
long-term markets. Things like, as have been discussed by 
various panel members, anything involving electronics, 
biotechnology, energy, all those things are not going away 
anytime soon. And I think--so on the long haul, I don't think 
that we should be as concerned about losing, as some people 
fear, with the IT. I don't think this is a fad. I think the 
ability to build things from the very small is going to be the 
way we do things from now on. So I think that is the key 
difference in describing the two.
    Chairman Burgess. Dr. Feng.
    Dr. Feng. Mr. Chairman, the IT revolution or bubble of the 
'90's really was built on a concept that was not built on a 
good business plan concept. People, especially venture 
capitalists, for example, were literally throwing money into 
the IT sector. Many, many infrastructure was created on a 
promise that it will have investment return much, much greater 
than it showed. And, of course, eventually since it was not 
based on good business plan, it faltered and collapsed.
    Nanotechnology, on the other hand, requires information--it 
requires a knowledge barrier which is a lot higher than the IT 
knowledge barrier. It requires people to really try to 
understand the science behind it, it requires people to 
understand the manufacturing behind it, it requires people to 
understand the business behind it, and they are still 
struggling at the moment in all that. So I think that it has a 
much longer period of maturation than the IT did. The IT 
literally grew overnight and became billions and billions of 
dollars of activity that nanotechnology is slowly growing into.
    I therefore believe that the fact that, as was mentioned 
earlier, nanotechnology will have impact in the health 
sciences, will have impact in the military strength of our 
nation, will have business implications and all that. It will 
be a much more robust and healthy industry in the years to come 
for our nation.
    Chairman Burgess. Dr. Elsenbaumer.
    Dr. Elsenbaumer. Yes. What I'd like to add to the comments 
that have already been made is that nanotechnology as it 
develops is going to obviously take a much slower time frame. 
It's going to be a little slower to develop, a much longer term 
time frame than what we recognized in the information 
technology era. A lot of these technologies are going to be 
directed at real needs in nanotech, and there will be continual 
feedback from the marketplace into the development process, and 
for that reason I think you'll see a much longer and much more 
robust sustained development of this technology for many, many 
years and decades to come.
    Chairman Burgess. Mr. Gintz.
    Mr. Gintz. I'd like to offer an alternative opinion. If you 
look at the history of industrialization in this country in the 
past 100 years, it took about 75 years for the car companies to 
become commodities. It took the radio and television industry 
about 35 years to become commodities, and it's taken the IT 
industry about 20 years to become a commodity. So I think it's 
all about velocity, and velocity is predicated on the kind of 
people that we have working in the field, and the more people 
that we have from other cultures that come here to learn about 
our processes, the faster they're going to be able to take 
those processes that they've learned to other countries. We've 
certainly seen this in North Texas in the semiconductor 
industry, specifically in Taiwan and Korea. So I think it's all 
becoming very interconnected, and we run the risk of having to 
stake out some territory that will enable us to defend from an 
economic and from a jobs perspective specific areas of the 
technology that we're going to want to own in this country.
    I think in the past 25 years economic development has kind 
of been the story of O. We started out with the info era, which 
was predicated primarily in the Northeast because you had a 
very good collection of economic and educational resources 
working on it. Then the next wave was the bio revolution and 
that was also predicated on the same kind of ingredients. With 
nano, we really are not closed to where that technology can 
develop, and so I think in those parts of the country, and in 
fact those parts of the world, where you take private and 
government capital, you take a very viable educational process, 
people who are open to technology transfer, that's going to be 
fertile ground for the development of the technology, and so I 
think that unlike maybe what other people believe with regards 
to the velocity of how quickly nanotechnology could transfer, 
it could transfer very quickly given that mix.
    Chairman Burgess. Dr. Randall.
    Dr. Randall. Say what you will about the boom and bust 
economics of the IT revolution. The benefits of it are still 
with us, and in fact Internet commerce continues to grow. And 
in fact I would argue that the IT revolution, even if the 
economics of it was a little herky jerky, has really positioned 
us to move forward in nanotechnology. In fact, a few people 
find it a little strange that Jim Von Ehr, who mainly made his 
money through a software company, got interested in 
nanotechnology. He understands, and I agree with him 
completely, that software and information control, largely 
developed by the IT boom, is going to be absolutely essential 
in developing nanotechnology. If you'll look at just in the, 
say, the human genome project, the amount of information that's 
generated there and will be generated ever more quickly with 
nanotechnology being applied to that problem, generating the 
information is one thing, dealing with it is entirely 
different. And so all of the infrastructure that we've put in 
place for information sharing, data mining and handling large 
amounts of data is going to be absolutely essential in making 
progress in this area. And as to the question are we well 
positioned in the North Texas area to contribute and benefit 
from the nanotechnology boom, I think absolutely, and I think 
it's going to be a long and sustained economic growth for this 
region and this country.
    Chairman Burgess. Thank you. Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you again, and I'm really 
pleased you had the opportunity of selecting the panel that 
you've brought us a good mix of academic researchers and 
industry representatives. I think that's wholesome, and I think 
that will be very good information to put out to the rest of 
the Subcommittees, the Committee and to the Congress in 
general. I might ask Dr. Randall if you attended the signing, 
did the President keep his economy cutback going by not giving 
out pens?
    Dr. Randall. I believe, although I did not personally 
attend, it was actually, I was speaking for Jim who did attend, 
and I believe he actually did give away some federal dollars in 
pens.
    Mr. Hall. Well, to a guy like Jim Von Ehr I'd give him all 
the pens I have because that's the ideal type contractor that 
we like to see that puts themselves into it, and that's the 
future with their funds, and I thank you for doing a good job 
of representing him here today. I wish he could have been here.
    Dr. Randall. Well, thank you, sir. I will pass along your 
comments to him. He'll appreciate those.
    Mr. Hall. Most of you mentioned federal funding and of 
course President Bush has just announced a new thrust, the 
National Nanotechnology Initiative, and the National Academy of 
Sciences has already conducted some reviews on this, as you all 
well know. First they establish a board, some type of an 
advisory board. You have to have that, it seems like, always. 
Then a strategic plan, which makes sense, and then interagency 
coordination, ask for that, and we have that here today. If 
they have it as much as they carry out the program as Chairman 
Burgess has in setting up this hearing, why we'll have input 
from everybody, from every side, and that's what we need. And 
then to promote interdisciplinary nanotechnology R&D. Those are 
some of the things, and you've mentioned funds being put in and 
the federal funds that you have to have for programs like this 
to get it off and going, just like the space program. One day 
that will be a competitive program by the private sector as it 
should be.
    I think in addition to setting funding goals, though, this 
bill, as you read it closely, the bill puts in place mechanisms 
for planning and coordinating an interagency research program 
and it includes a lot of expert outside advice, and that's what 
we're doing here today is getting that to go to the people that 
will make the program work and ensure its relevance to emerging 
technological opportunities and to industry. In other words, 
don't oversell or don't undersell nanotechnology, and I guess 
that's what the Congress is crying out to you now.
    You have to have funding and I think--and by the way, the 
President's just announced a new thrust to the moon, and I 
don't know how far off that is, but I think--I certainly 
congratulate him for going back and thinking in those terms, 
because who knows, the next war might be fought from space, but 
certainly in all the thrust that we have from the Science 
Committee and into the space thrust, we need to be first 
because there's so much fallout, medical fallout, national 
defense fallout. It's like President Reagan's effort for Star 
Wars. We probably never did accomplish that, but the Russians 
didn't know we didn't and there was a fallout on the way there. 
Those are things that meetings like this spawn, and I thank you 
all for being a part of it.
    I guess my question is to any of you, what's your 
impression as to how the United States ranks internationally in 
the commercialization of innovations on nanotechnology? Have 
you had a chance to survey that? Do you have some opinions on 
that? Are there particular subfields in the technology in which 
other countries are more advanced than we are? Are we behind? 
Do we have to catch up like John F. Kennedy said at a certain 
time we were going to put a man on the moon? Not today, you'd 
have to say we're going to put a person on the moon, I guess. 
But are we behind either in applications or in research 
accomplishments in nanotechnology or have any of us really got 
off and started and underway? Is that a question that any--Mr. 
Gintz? And don't ever say small for anything in Texas, because 
we don't agree with that. We think everything's huge in Texas, 
and we think of all small industry, 98 percent of industry is 
small industry here and everywhere.
    Mr. Gintz. When I've gone abroad people's impression of 
Texas is it's a whole other country. The assessment that we've 
made is the Germans in particular have made some pretty 
interesting advancements in basic materials science, which has, 
of course, always been their strength.
    Mr. Hall. Yes.
    Mr. Gintz. I don't think outside of materials science, 
though, there's any particular area of nanotechnology that 
we're behind. I think that we have some very specific areas 
that we're working in, especially with regards to electronics, 
that we're clearly ahead. It's difficult, for example, for the 
Japanese to understand exactly the nature of what we're doing 
because of the structure of some of our collaborations between 
research universities and private companies. But I think most 
people today are probably concerned about the proximity of the 
competition from overseas. The gap is narrowing because there 
are dedicated groups of people in Singapore, in Europe, in 
Japan that are working in nanotechnology that are probably 
approaching the same scale of effort that we're seeing in the 
United States, but because so much of the technology--of the 
scientific discoveries were here, we have a three- to five-year 
head start.
    Mr. Hall. I have no time left but does anybody want to take 
15 or 20 or 30 seconds? Go ahead, Dr. Reidy.
    Dr. Reidy. Congressman, I think the way I would address 
this is I would concur with what my colleague just said that 
the Germans are doing some very interesting things in 
nanotechnology of materials science.
    Mr. Hall. Like what?
    Dr. Reidy. Well, I mean, for example, the highly porous 
materials, while originally developed in the '30's by 
scientists at Stanford, the more recent revolution began in the 
'80's in Germany. These are the materials called aerogels, 
which are highly porous, and I just attended a conference on 
that so I can speak on this. And the Germans and the Austrians 
and some of the other European countries are doing very well, 
and these are highly--very, very small structures that have 
very selective things they can do in the environment, pick up 
toxic chemicals, things like that. But to be fair, I think 
Americans, because we have a tremendous base of 
instrumentation, and believe it or not that really gives us a 
huge advantage over other countries who are starting, is that 
all three universities represented here are well stocked and 
much better stocked, for example, than many universities, most 
universities in China.
    So we have the competitive edge, I think, to maintain our 
lead and so again the key issue is, and I put a figure in my 
testimony where it takes materials, it takes instrumentation 
and it takes students to do research on the academic level, and 
if you shortcut any of them, you slow things down, and I think 
the Nanotechnology Initiative gives us the opportunity to keep 
that pace up. So I would assert that we are in the lead in most 
of the fields, but that cannot be--those cannot be laurels we 
rest on.
    Dr. Randall. If I could interject just for ten seconds, you 
made a very good point about instrumentation and while 
currently we do enjoy a big advantage there, let me point out 
that in Europe and particularly in Japan a lot of the high-tech 
instrumentation is being produced in these countries. This is a 
key advantage that we own and are losing. Manufacturing tools 
are seeping out of this country, and it's something that we 
really need to work at bringing back, not only for 
nanotechnology but for high technology in general.
    Mr. Hall. Of course, initiatives are going to grow as we 
fund it and as we put a proper budget in there for it, and I 
think the President started it out with $464 million in Fiscal 
Year 2001 and it's grown up to $849 million. That's an awful 
lot of money in Rockwell, Texas, but that doesn't seem like an 
awful lot of money as we move a thrust as important as 
nanotechnology that can mean leadership for this country. I 
think, Mr. Chairman, that we ought to take the word back that 
we're going to need a lot more funds than we've put into this 
as this thing grows, and I depend on you to sell that because 
you're the majority party up there.
    [Laughter.]
    Chairman Burgess. We'll put it on the list.
    Mr. Hall. Okay. I yield back the time I don't have.
    Chairman Burgess. Thank you, Mr. Hall. I wanted to kind of 
combine a couple of concepts. We've talked about some of the 
grand vision things and coupling to the energy of the Apollo 
mission in the '60's, balancing our long-term interests with 
short-term expectations, and part of that would be a concern of 
overselling the expectations on nanotechnology. And, certainly, 
while we do, and Mr. Hall and I take this very seriously and we 
will be selling the good news of nanotechnology, there's also, 
and I think we heard this when we talked about the ethical 
considerations that we were putting into the bill, there's a 
dark side of the force as well, and I have not read the book, I 
must confess. There's apparently a movie coming out next year 
called ``Prey'' where there's a convergence of computers, 
biotechnology and nanotechnology to create intelligent nanotech 
particles that take over people's lives and bodies. So could 
you just address that? How do we balance the expectations--
overbuilding our expectations with the short-term results we're 
likely to achieve? And then, two, yes, we do want to sell the 
good news on nanotechnology, but how do we counterbalance the--
someone brought up the issue of the genetic engineering in 
foodstuffs in Europe and how that perhaps wasn't approached as 
carefully as it might have been, and there's been some fallout 
from that. So how do we address that as well? And open that to 
any member of the panel.
    Dr. Randall. I'd like to address at least part of that. I 
love Michael Crichton, I think he writes great science fiction, 
and he does touch on a fear that people have about new 
technologies. This isn't a new phenomenon. And in fact 
nanotechnology brings with it a lot of power in the technology, 
and I don't believe there's any such thing as a good technology 
or a bad technology. It has uses that can be for good and for 
bad, and serious debates have been touched off about what is 
the ways, the ethical implications, the social implications of 
nanotechnology, and what are the impacts of a particular 
material? We're very excited about, at Zyvex, carbon nanotubes, 
but the health implications of those are not well understood. 
There's a great program down at Rice that's starting to look 
into those health risks, potential health risks with new 
nanomaterials.
    And so I think it's a debate that's a healthy one, that 
should be ongoing. There's always going to be some reactionary 
results there, but in fact I think that plays a good role in 
starting the debate and looking very carefully as we develop 
new technologies. We need to make sure that they're going to be 
safe technologies and that they're going to be used in ways, as 
best we can control through policy and good economics, in 
beneficial ways.
    Chairman Burgess. Anyone else like to address that, 
particularly in the sort of sense of balancing the 
expectations, the short-term results versus the long-term 
expectations?
    Dr. Feng. Mr. Chairman, I fully agree with what was just 
said. I think it is very important for universities not to 
oversell nanotechnology and not to oversell, generally, any 
kind of research that they're doing. Universities must take a 
long-term view about the research that they're trying to do for 
the benefit of mankind, for the increase of lives and so on and 
so forth. On the other hand, nanotechnology is posing a very, 
very critical challenge to universities at the moment that we 
must try to meet as soon as possible. It is one of the first 
times where a research program within universities has 
immediate interest from the media, from the public and so on so 
intensively, and from the government, of course. And so, 
therefore, I think that universities must conduct continuous 
public lectures to the public and let them understand what are 
the issues that are involved at the moment. Universities should 
not close their doors to the public and do this research in-
house and only communicate with other academia. Therefore, 
events such as this, and similar to this, should be conducted 
on a continuous basis so that the public feels that they are 
not being blocked out.
    Chairman Burgess. Yes, Dr. Reidy.
    Dr. Reidy. Dr. Feng's an excellent representative and has 
spoken very well for the scientific community on nanotechnology 
and the public in the past, and I'm sure will continue to do 
so. I think one issue that he brought up that I want to hammer 
down is I had an advisor once tell me that as a scientist the 
only thing you have is your credibility, and that really--he 
was speaking with regard to our colleagues. What's even more 
important is the public has very little understanding for what 
we do and how important our credibility is, and they have very 
little patience for a scientist who says one thing and can't 
produce, and it is incumbent on us to produce what we say we 
can produce. And I think one of the things I listened very 
carefully to all the things that were said today, all of us 
were very measured in how we described what nanotechnology is 
doing, and we speculate what it can be, but no one's reaching 
beyond the football field here. We're all staying within our 
realm, and I think having representatives on universities who 
are willing to speak toward books and movies like ``Prey'' 
immediately and not pooh-pooh the idea that it's just a fear 
but discuss it, these sort of forums are critical. And one of 
the things that I spoke of earlier, it is critical that the 
public appreciate what we're doing and support it, because in 
the long term if they don't, they're going to vote against 
people who are in support of it.
    Chairman Burgess. Dr. Elsenbaumer, did you have anything to 
add?
    Dr. Elsenbaumer. I just wanted to expound a little bit more 
on the public awareness factor. I think as we as scientists, 
and also those of us in private industry, need to partner and 
make sure that we are able to communicate adequately to the 
general public what these technologies mean and what they mean 
to them in common terms and easily understandable terms. And we 
need to do this, I think, on a continual basis as these 
technologies get developed. It's, I think, also critical that 
the private sector be part of this process, because they are 
the ones that have the measure, they are the ones that will 
actually be implementing these technologies into our lives. And 
so as these things get--as our technologies advance, as new 
products and processes and devices get developed, the private 
sector can help with understanding how these are going to 
change or implement or impact on people's lives. So I think 
both academia and the private sector have a responsibility 
here.
    Chairman Burgess. Thank you. Mr. Hall.
    Mr. Hall. Dr. Elsenbaumer, I certainly agree with you, and 
we need to have it in language that everybody understands. So 
often we have men and women like you that come before us up 
there and I have to say, and it irritates them sometimes, ``Now 
tell me what you said in American where I can understand it.'' 
Even my associate, Charles Cook, here who's been with me, 
believe it or not, since I was in the Texas Senate 40 years 
ago, a graduate of TCU, University of Texas and a guy that 
knows something about just about everything, but I asked him 
with the good scientific mind that he has, I asked him what was 
nanotechnology and his answer was it's the science of 
manipulating and characterizing matter at the atomic and 
molecular level. I could ask 19 more questions about that and 
still not know what the heck nanotechnology is. But you know 
and we know, let me tell you, this program is going to grow and 
it's going to grow fast, and we've got to really have some 
cooperation, as the President requested, in those four things 
that he set out there between industry and educators.
    For example, electrophoresis in space at one time was the 
equipment that, you know, that Johnson and Johnson and McDonald 
Douglas and NASA put together to gather components in a 
weightless environment as they circle the Earth to come back 
here to study to try to find a cure for cancer, diabetes and 
other dreaded diseases. And after the Challenger--who's from 
Penn State? Yes. We got to looking for that equipment and we 
found it at Penn State, and nobody knows how it got there, and 
it was old equipment by that time, and we now have bioreactors 
that are up there that we hope will be productive. So it's 
going to go pretty fast.
    Dr. Feng, I can give you some good hope on the visa 
situation. There's some technology answers to letting the right 
people in and keeping the wrong people out, and they're working 
on that up there. You know, the Immigration Act used to be 
written by a couple of names: Simpson and Mazzoli, Alan Simpson 
from Wyoming and Mazzoli from Kentucky. What the heck did they 
know about immigration? You know, up there insulated by about 
ten states, I guess, and we're here on the border.
    Chairman Burgess. They actually have a northern border up 
there.
    Mr. Hall. Yes, they have a northern border too but I don't 
count that.
    [Laughter.]
    I'm very pro-Mexico, and I'm not very pro-Canada. But they 
say down in Mexico and on the Rio Grande there one time under 
the Simpson-Mazzoli Act we just passed that there was a group 
standing there that had just crossed the river with their hands 
up and said the act was so loose they said, ``No, no, drop your 
left hand and repeat after me.''
    [Laughter.]
    So that might have been the way that they were going to 
solve the problem, but that doesn't solve it. We have a lot to 
do and I certainly want to encourage your witnesses to share 
the views of the federal effort to advance nanotechnology and 
how we can make it more effective.
    And I think it's 20 minutes until 11, the Chairman said 
we're going to stop at 11, and I don't have any more real 
questions, but I would like, Mr. Chairman, if we might have the 
right to maybe write to these gentlemen and seek information in 
the future if we need it to update the report that Dr. Burgess 
will make to the United States Congress. And I yield back my 
time and I thank you very much.
    Chairman Burgess. Without objection, so ordered.
    Dr. Randall. Please, we would be honored to answer any 
questions that you might send to us at Zyvex and do our best to 
illuminate you as best we can.
    Chairman Burgess. Let me just touch on one other concern 
before this wraps up today, and that's the issue of the 
liability climate in this country, and we're currently 
struggling with trying to somehow come to some sense on the 
asbestos litigation crisis in the country and how it's 
negatively impacted the manufacturing sector in this country. 
Dr. Randall, you brought up the issue of the nanotubes and 
carbon tubes and the biologic effects on the human body, a lot 
of which are unknown. What would be your vision? Obviously, we 
want to protect the public interest and yet at the same time we 
don't want to drive the technology offshore by a pernicious 
legal climate. So how do you see those two roles progressing?
    Dr. Randall. It's certainly a difficult balancing act 
between trying to encourage progress and trying to maintain the 
health and safety of the American public. I think that 
activities such as this one, where we have an open forum to 
discuss the issues, are a good way to start. I do believe that 
to some extent some of the attempts to control the size of the 
awards that are made in some cases I think to some extent 
that's gotten a little out of control in this country. We tend 
to be a litigious society, and I think some control in that 
place would be a good thing. But I certainly have to recognize 
and understand that there are risks out there and that people 
want to feel protected, and so it's a difficult act to try to 
figure out what the right balance is. I would like to see us 
swing a little more toward reducing the level of liabilities, 
reducing the enormous size of some of the settlements that 
we've seen recently.
    Chairman Burgess. Yes, Dr. Feng.
    Dr. Feng. Yes, Mr. Chairman. Certainly, this country is 
evolving so rapidly in terms of litigations and political 
correctness and so on. In fact, yesterday I just learned that I 
no longer can refer to Before Christ, B.C., anymore as an era. 
It now has to be B.C.E., which stands for Before Common Era. So 
all that is changing so rapidly. It's actually coming out of 
Washington, so you probably should know this.
    Chairman Burgess. No.
    [Laughter.]
    Mr. Hall. Probably out of the leadership.
    [Laughter.]
    Chairman Burgess. No.
    Dr. Feng. The asbestos and the nanotube are actually 
excellent examples of how we have progressed as a nation. 
Asbestos was obviously used when it was introduced into the 
Nation for a specific purpose, to do insulations and so on. 
And, of course, at that time no one knew that it was a health 
hazard, and years later we found out that that was true. 
However, nanotechnology, of course, we don't know it now, but 
we are already worrying about it. So I believe that the fact 
that we are talking about it almost from day one, scientists 
that are working in this issue, thinking about it, talking to 
the health people, talking to the medical people, working 
closely with them, we will very quickly come to an 
understanding as to its implications on human health. Asbestos 
was used, and in fact introduced to the whole Nation, without 
having any kind of such discussions, and by the time it was 
realized it was already too late, it was all over the Nation. 
So I think that I'm quite optimistic that we are much more 
mature as a nation in dealing with this issue today.
    Chairman Burgess. Yes, Dr. Reidy.
    Dr. Reidy. I would concur with Dr. Feng. As a one-time 
asbestos inspector, I can speak both to the logic and the 
illogic of some of the actions, especially the litigious 
nature, of asbestos. For example, at one postal service 
facility in Washington, one of the plenums was covered in 
asbestos and was repeatedly being hit by mail carts and 
launching asbestos in the air. I would consider that a major 
hazard. On the other hand, this was treated with the same 
concern as a small amount of asbestos in a closet in the far 
reaches of the same facility.
    I think Dr. Feng's exactly right. We are at the point now 
that both the arrogance of the way we do things has diminished 
considerably. We are sensitive to the public. And also, in 
agreement with what he said, I think we are beginning to do 
this at the very onset of our issues. Now, I heard--someone 
mentioned the Rice Nanoscience Institute. Vicki Colvin, the 
Director there, recently spoke to some of the fear issues that 
were going on, and she spoke that she spends a great deal of 
her time today answering questions about some of the fear 
issues that the public has. And this is a tremendous 
responsibility that we all have. I mean when someone from the 
press comes up to us, this is not something that we need to 
sneer at. I think rapid response and knowledge about our own 
topic area is critical.
    I would not, however, and it's been suggested by some of 
the people who are very concerned, that there should be sort of 
FDA approval of a lot of these products. The fact is we're not 
going to know what a lot of these things do for a long time 
anyway and risk is going to occur. I think there's a 
rationality to some of these things, for example, some of these 
nanoparticles that I mentioned earlier being looked at as fuel 
additives. These materials are incredibly inert and have been 
inert for a long time and we walk around with them. They exist 
in road salts and things like that. The fact is that we can't 
expect the worst from nanotechnology. We have to expect 
rational sort of studies, and I think so long as the 
Nanotechnology Initiative has some room for funding for this 
sort of thing, these sort of companion pieces between 
universities and researchers will work well to allay a lot of 
the public fears.
    Mr. Hall. You addressed the word, ``fear,'' you pitched 
that in there. I think it's something that we really ought to 
consider and talk about and maybe put to rest, because Frank 
Roosevelt said 60-something years ago that the only thing we 
had to fear was fear itself, and today we're a nation at fear. 
We're fearful they're going to hit the Golden Gate Bridge, one 
of our other huge facilities, and you know the hard truth is 
we've spent a lot of money protecting this country and they 
haven't hit us since that time. And the Doctor and I, as we go 
to the Capitol and go to our offices we have to show our IDs, 
and we know people up there, they know us, but we have to get 
in our own office. They look under our car with mirrors, they 
have the dogs sniff around. They're careful with us.
    Chairman Burgess. They don't do that to me.
    Mr. Hall. They just do it to us Democrats, I guess.
    [Laughter.]
    But we do, we go through a tough mission to get in to our 
own offices there, and if they're that careful with us, you can 
know how careful they are at the airports. One thing we have to 
be thankful for is it's working, and we may have an incident 
before any of us get home today, but up to this time it's 
working. And let me just thank, I want to make two thanks, and, 
Doc, I want to thank you for this hearing and for the way you 
came to Congress. You didn't come to Congress as a novice. You 
hit there working and he was accepted as a partner in the 
thrust that we had up there. He's a very fine Member of 
Congress, highly respected, and I want to also give thanks to 
Gene McDermott, Cecil Green and Eric Johnson, three of the 
great men in American history and those that they spawned from 
them. We are in a building that they provided for the 
University of North Texas. I handled the bill as a senator in 
the Texas Senate when we created the University of Texas at 
Dallas. They were very generous in giving all the area that 
they gave there. Great Americans like that step forward when we 
really need them, and I want to certainly always remember their 
gifts and their dream.
    And just in closing, I was very close to Eric Johnson. I 
had such high regard for him. And I asked him about TI and how 
they formed it, and he said, one Sunday morning he was driving 
out and he had just cut a trade, he had signed a deal, a letter 
of intent to acquire Texas Instruments. He was driving out one 
Sunday morning to see what he'd bought and he was trying to get 
out there and get back to go to church with Margaret, with his 
wife, and on the way out he turned on the radio and the 
Japanese were bombing Pearl Harbor. I said, ``Well, Mayor, as a 
matter of being a great engineer, you're really super but as a 
matter of timing, by God, you're perfect.'' And, of course, TI 
had just gone like that. And we have a great country and great 
opportunity, and this is going to require a lot of cooperation 
and a lot of work.
    And let me also congratulate Dr. Burgess. He's done a good 
job with the men and women in Congress who allocate funds. His 
area and the State of Texas were very gifted through his 
efforts, and there's others of course who have helped, in 
acquiring funds in nanotechnology trusts. If you'll just check 
the books and records, we weren't passed by when they allocated 
out the funds, and that's the name of the game. They say money 
ain't everything, but it sure keeps you in touch with your 
kids. Well, let me tell you, it also keeps you in touch with 
the folks you represent, and the Doctor is doing a great job of 
that. I congratulate him. And all this kidding about 
Republicans and Democrats, I'm the only Democrat in Congress 
that endorsed, worked for, supported the President and I am 
still proud I did. So I'm not that hard on Republicans, 
actually. Thank you.
    Chairman Burgess. Thank you, Mr. Hall, for being here. I 
guess we probably will wrap this up at this point. Someone made 
the point about not wanting to throw nanotechnology over the 
fence. I think what we've seen here this morning is a good 
example--we're taking fences down. We've got private 
enterprise, we've got public institutions and what really 
excites me is we've got collaboration between our three centers 
of excellence of nanotechnology in the Metroplex. And going 
forward I think that's really what's going to make the 
difference for us here in North Texas and being the leader, 
making the type of world class institutions we want to make, 
utilizing this technology going forward.
    I would just say, as we wrap up, if any of you have any 
follow-up thoughts that you wish to send to myself or the 
Committee, please feel free to do so. I want to put things in 
generational context. Ralph Hall was a contemporary of Eric 
Johnson, and I went to high school and graduated with his 
granddaughter. Thank you.
    [Laughter.]
    [Applause.]
    [Whereupon, at 10:50 a.m., the Committee was adjourned.]

</pre></body></html>
